<html>
<title> - U.S. POLICY TOWARD SOUTHEAST EUROPE: UNFINISHED BUSINESS IN THE BALKANS</title>
<body><pre>[Senate Hearing 108-700]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-700

    U.S. POLICY TOWARD SOUTHEAST EUROPE: UNFINISHED BUSINESS IN THE 
                                BALKANS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 14, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
96-976                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    21
Dobbins, Hon. James, director, International Security and Defense 
  Policy Center, RAND, Arlington, VA.............................    28
    Prepared statement...........................................    31
O'Brien, Mr. James C., principal, The Albright Group, LLC, 
  Washington, DC.................................................    35
    Prepared statement...........................................    37
Ricardel, Ms. Mira R., Acting Assistant Secretary of Defense, 
  International Security Policy, U.S. Department of Defense, 
  Washington, DC.................................................    11
    Prepared statement...........................................    14
    Responses to additional questions for the record from Senator 
      Feingold...................................................    63
Stephens, Ms. D. Kathleen, Deputy Assistant Secretary of State, 
  South Central Europe, U.S. Department of State, Washington, DC.     4
    Prepared statement...........................................     6
    Response to an additional question for the record from 
      Senator Feingold...........................................    62
Surroi, Mr. Veton, publisher, Koha Ditore, Pristina, Kosovo......    49
    Prepared statement...........................................    52
Vejvoda, Mr. Ivan, executive director, Balkan Trust for 
  Democracy, German Marshall Fund of the United States, Serbia 
  and Montenegro.................................................    41
    Prepared statement...........................................    43
Voinovich, Hon. George V., U.S. Senator from Ohio, opening 
  statement......................................................     1

                                 (iii)

  

 
U.S. POLICY TOWARD SOUTHEAST EUROPE: UNFINISHED BUSINESS IN THE BALKANS

                              ----------                              


                        WEDNESDAY, JULY 14, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 2:34 p.m., in room SD-419, Dirksen 
Senate Office Building, Hon. George V. Voinovich, presiding.
    Present: Senators Voinovich and Biden.


            opening statement of senator george v. voinovich


    Senator Voinovich. Good afternoon. The committee will 
please come to order.
    I would like to thank the chairman, Senator Dick Lugar, and 
Senator Biden and the chairman of the Subcommittee on European 
Affairs, Senator Allen, for agreeing to convene this hearing 
today to examine U.S. policy toward Southeast Europe.
    While the United States must move forward to fulfill 
commitments in Iraq, Afghanistan, and other parts of the world, 
we must not forget challenges that remain in the Balkans, 
particularly in the successor states of the former Yugoslavia.
    As we begin this discussion, I would like to welcome two 
distinguished panels of witnesses who have agreed to testify 
before the committee this afternoon. We will first hear from 
Deputy Assistant Secretary of State Kathleen Stephens, who 
recently returned from Belgrade and Pristina. I was on the 
phone with Marc Grossman and I am glad that you were in 
Southeast Europe with him because you will fill me in more than 
what Marc was able to do over the phone. I appreciate the fact 
that Secretary Grossman has paid particular attention to 
Southeast Europe and he traveled to Kosovo following the ethnic 
violence in March, and I am glad that Ms. Stephens is here 
because I look forward to her feedback and fresh perspective on 
things.
    I would also like to welcome Ms. Mira Ricardel, who is 
Acting Assistant Secretary of Defense for International 
Security Policy. As the United States and members of the 
international community work to promote security and stability 
in Southeast Europe, with American soldiers participating in 
peacekeeping missions in Kosovo and Bosnia, it is important 
that we hear from the Defense Department regarding their work 
in the region. We appreciate the Defense Department being 
represented here today.
    In fact, at present, more than 950 soldiers from the Ohio 
National Guard's 337th Armor Brigade are preparing for 
deployment to Kosovo where they will serve as part of NATO's 
Kosovo force. These men and women in uniform from Ohio and 
others from across the country continue to perform a vital 
mission in Kosovo. And I am glad that Ms. Ricardel has agreed 
to be here.
    Our second panel includes Ambassador James Dobbins, who 
serves as director for the International Security and Defense 
Policy Center at RAND. I will never forget the wonderful 
communication that I had, Ambassador Dobbins, during the 
military campaign in Kosovo and thereafter. I really appreciate 
the attention that you gave me and the issues.
    We are also going to hear from Mr. James O'Brien of the 
Albright Group.
    We are also pleased to have with us on the second panel Mr. 
Ivan Vejvoda of the German Marshall Fund's Balkan Trust for 
Democracy, who traveled from Belgrade to be here today, and Mr. 
Veton Surroi, Publisher of the ethnic Albanian newspaper, Koha 
Ditore, who flew in from Pristina. Again, we welcome these 
witnesses and thank you so much for traveling such a long 
distance to be with us this afternoon.
    As my colleagues are aware, I have long maintained an 
active interest in developments in Southeast Europe. During the 
course of the last decade, the United States has invested 
considerable resources in an effort to promote lasting peace 
and stability in the region and to bring the countries of the 
Balkans into Europe's democratic institutions.
    Last June this committee conducted a hearing, which I 
chaired, to examine progress and challenges in the successor 
states of the former Yugoslavia, and we concluded then, as we 
continue to discuss now, that while the region is clearly a 
different place following the death of Franjo Tudjman in 
Croatia in December 1999 and the removal of Slobodan Milosevic 
from power nearly 4 years ago, our work is yet not finished as 
we strive to see the President's vision of a Europe that is 
whole, free, and at peace become a reality.
    The latest round of ethnic violence in Kosovo, which 
erupted on March 17, 2004, and resulted in the deaths of 20 
people, including 8 Kosovo Serbs, 8 Kosovo Albanians, and 4 
unidentified victims, is a tragic and urgent reminder of the 
work that remains to be done in the Balkans.
    In addition to those who lost their lives, the events of 
mid-March resulted in the displacement of more than 4,000 
Kosovo Serbs, Roma, and others from their homes and 
communities, and the destruction of more than 900 homes and 30 
churches and monasteries belonging to the Serbian Orthodox 
Church, adding to the more than 100 churches and monasteries 
that had already been destroyed during the last 5 years.
    In the aftermath of this violence, the United States and 
members of the international community have begun to reexamine 
the situation on the ground and reassess what should be done in 
order to promote a secure and stable future for all people in 
Kosovo.
    I am glad the United States has enhanced its level of 
engagement in Kosovo following the violence. Under Secretary of 
State Marc Grossman has made frequent visits to the Balkans in 
recent months, returning from his latest trip, as I mentioned, 
a few days ago. U.S. officials are also participating in 
regular meetings of the Contact Group in Kosovo. We will play 
an active role as the new head of UNMIK, Soren Jessen-Petersen, 
assumes the role later this summer. This is welcomed and it 
should continue.
    That being said, we do need to do more. We should do all 
that we can to work with leaders in Pristina and Belgrade and 
members of the international community to find a way forward in 
Kosovo.
    I have traveled to Kosovo three times since the end of the 
military campaign in 1999, most recently in May of 2002. At 
that time, I met with Kosovo Albanian leaders, including 
President Rugova and Prime Minister Rexhepi, as well as leaders 
of the Kosovo Serb community. In my conversations with all 
political leaders, I stressed the importance of moving forward 
with the efforts to promote the rule of law and refugee return, 
as well as to work for the protection of human rights and 
freedom of movement for all people in Kosovo.
    At that time, I reiterated a plea that I made during a trip 
to Pristina in February of 2000 urging Kosovo's leaders to 
start a new paradigm of peace and stability for all people in 
Kosovo. I continue to believe it is essential that minorities 
in Kosovo, including Serbs, Roma, Egyptians, Bosniaks, Croats, 
Turks, Ashkalia, and others, are able to move about as they 
wish and live lives free from fear.
    I could not agree more with the statement made in the 
``Ninth Assessment of the Situation of Ethnic Minorities in 
Kosovo,'' a joint report released in May 2002 by the 
Organization for Security and Cooperation in Europe and the 
U.N. High Commission on Refugees. The report concludes: ``Only 
when Kosovo's minorities feel confident in their long-term 
future and when all of Kosovo's displaced persons are able to 
exercise the choice to return to their homes, feeling assured 
of their safety and confident in their ability to access 
institutions and participate in social, economic, and political 
life in Kosovo on a nondiscriminatory basis, will it be 
possible to say that the situation of minorities in Kosovo is 
acceptable.''
    While the violence appears to have calmed, the situation on 
the ground remains tense. There is a long road ahead as we look 
to work with the people of Kosovo not only to rebuild what has 
been destroyed, but also to secure an environment where respect 
for human rights and the rule of law are protected. Continued 
U.S. leadership is very, very critical in that part of the 
world.
    Other challenges also remain in the Balkans. Prominent 
among these is the apprehension of war criminals still at 
large, including Ratko Mladic, Radovan Karadzic, and Ante 
Gotovina. It is essential that Serbia and Montenegro, Bosnia 
and Croatia enhance their level of cooperation with The Hague. 
Doing so is critical as the countries of the region address the 
atrocities of the past and move forward to the future. The 
importance of progress on this front is seen on the heels of 
the NATO summit in Istanbul, as countries look to join the 
European Union and NATO's Partnership for Peace. Without action 
to apprehend these individuals, there can be little movement on 
efforts to move toward European integration. I really hope that 
they all get that message.
    While there is work to be done, there have certainly been 
positive developments during the course of the last year. 
Slovenia is now our NATO ally and a member of the European 
Union. Macedonia and Croatia, along with Albania, are working 
to join NATO through the Membership Action Plan, and they are 
moving forward with plans to join the European Union.
    Moreover, just 3 days ago, the world watched an historic 
event in Belgrade, as former Minister of Defense Boris Tadic, a 
political leader who embraces democratic reform and European 
integration, was inaugurated to serve as the next President of 
Serbia. The importance of this occasion cannot be overstated. 
Boris Tadic defeated the candidate of the Serbian Radical 
Party, the party of the indicted war criminal Vojislav Seselj, 
in a run-off election just 2\1/2\ weeks ago. On June 27, voters 
in Serbia embraced democratic reform and European integration 
and rejected nationalism that has for too long marred their 
past. It is my sincere hope that this is a sign of things to 
come in Serbia and Montenegro, and I am hopeful that action 
will soon be forthcoming, particularly on cooperation with The 
Hague.
    Earlier this spring, the world also watched democracy at 
work in Macedonia, as the country elected a new President 
following the tragic death of Macedonian President Boris 
Trajkovski, whom I have known for many, many years. On February 
26, President Trajkovski was tragically killed when a plane 
carrying him and eight others crashed in southern Bosnia. His 
death is a tragic loss not only for his family and those who 
knew him well, but for the people of Macedonia, the broader 
region of Southeast Europe and I believe the world at large.
    While Boris Trajkovski is sorely missed, he left a legacy 
of courageous and principled leadership, progress, and 
commitment to democratic reform that put Macedonia on a path 
toward membership in NATO and the European Union. That legacy 
lives on, and I think I would be remiss if I did not mention my 
friend as we gather today to discuss ways in which the United 
States can work with political leaders in Southeast Europe to 
promote lasting peace and stability in the region.
    Again, I would like to express my sincere appreciation to 
the chairman and ranking member for giving us the opportunity 
to discuss U.S. policy toward Southeast Europe this afternoon. 
I would also like to thank our witnesses for their time and 
testimony. We will begin our testimony this afternoon with 
Deputy Assistant Secretary of State Kathleen Stephens.

 STATEMENT OF D. KATHLEEN STEPHENS, DEPUTY ASSISTANT SECRETARY 
    OF STATE, SOUTH CENTRAL EUROPE, U.S. DEPARTMENT OF STATE

    Ms. Stephens. Mr. Chairman, thank you very much for that 
opening statement and thank you again for this opportunity you 
have given us to discuss the challenge and opportunity before 
us in south central Europe. You have already outlined in a very 
comprehensive and insightful way very much what we see as the 
opportunities and the obstacles before us, and I will make my 
opening statement very brief.
    However, as you already noted, I did just return from the 
region where I accompanied Under Secretary of State Marc 
Grossman on his third trip to the region since last November. 
In addition to the stops where I accompanied him in Belgrade 
and Pristina, I had the opportunity to have a number of 
meetings and stops in Bosnia-Herzegovina, Croatia, Montenegro, 
and Albania. And I would say this, very much I think consonant 
with your opening remarks. I believe we are making slow, but 
steady progress in addressing the political divisions, the 
economic devastation, and the human toll of a decade of 
conflict in the region.
    In Serbia, with the election of Boris Tadic as President, 
we now do have a proven partner with a strong mandate for 
reform and Euro-Atlantic integration. Having taken office, he 
must maintain with Prime Minister Kostunica the solidarity of 
democratic forces and take action. We have made clear the 
fundamental importance of long overdue action by Belgrade to 
cooperate fully with the International Criminal Tribunal for 
the Former Yugoslavia. We want Serbia to succeed, but success 
will come only through meeting its international obligations. I 
was pleased to note that President Tadic, in his inaugural 
address, made precisely this point.
    In Kosovo, following the violence in March, the parties 
there, with encouragement and support from us and our allies, 
are beginning to repair the physical damage and restore the 
inter-ethnic dialog. And I do talk more about that in my 
written statement and, of course, will be happy to talk about 
it later.
    Through concerted effort and coordinated engagement with 
our allies, we are working to restore progress on standard 
implementation as the only path to resolving the question of 
Kosovo's future status. We are working to focus the parties in 
particular on the issue of effective local government, ideas 
about decentralization as a key element to progress on the 
standards, and to a true multi-ethnic future for Kosovo and all 
its citizens.
    In Bosnia and Herzegovina, state level authorities are 
emerging and they are becoming empowered. The NATO summit in 
Istanbul last month has paved the way for the successful 
conclusion of SFOR's mission in Bosnia, in keeping with the 
President's ``in together/out together'' pledge to allies and 
consistent with our commitment to hasten the day when U.S. and 
other international security forces can complete their mission 
and come home.
    The NATO summit in Istanbul also reaffirmed that the door 
to NATO remains open, and we are working closely with the next 
generation of aspirants, Albania, Croatia, Macedonia, as they 
work with each other through the Adriatic Charter and on their 
own plans to move forward toward NATO accession. Each has 
progress still to be made, but all will have our full support.
    I wanted to comment today in particular on the situation in 
Macedonia where we have been very focused this week on the 
final piece of decentralization legislation which will be the 
last element of the 2001 framework agreement. We have been 
working closely over the last few days with local authorities 
and with our partners in the international community to 
complete the implementation of the framework agreement and keep 
Macedonia on the path to Euro-Atlantic integration. The news 
out of Skopje today, after some hard negotiations, is very 
promising and we are very encouraged that Macedonia, consistent 
with the legacy that you so rightly mentioned of the late 
President Trajkovski, is taking this latest and important next 
step.
    So, Mr. Chairman, I returned from my most recent trip 
impressed that we are making progress and also even more 
impressed by the deepening and broadening commitment of the 
people of the region and their leaders to take their rightful 
place in a Europe, as you described it, whole, free, and at 
peace. But completing that journey will require our continued 
engagement and their continued effort and concerted effort to 
bring war criminals to justice, to bring refugees and 
internally displaced persons home, to take control of their own 
borders and their own futures, and to take advantage of 
economic opportunities by following through on structural 
reforms. These are the actions we must see to build upon the 
foundation our efforts in the region have laid and to finish 
the job in the Balkans with the region firmly, irreversibly on 
the road to joining a Europe whole, free, and at peace.
    Mr. Chairman, I thank you for your invitation today, and I 
welcome your questions.
    [The prepared statement of Ms. Stephens follows:]

               Prepared Statement of D. Kathleen Stephens

                 ``UNFINISHED BUSINESS IN THE BALKANS''

    Mr. Chairman, distinguished members of the committee, ladies and 
gentlemen. Thank you for this opportunity to represent the Department 
of State to discuss our policy in the Balkans. I particularly 
appreciate the opportunity to appear with Acting Assistant Secretary of 
Defense Ricardel.
    Our efforts in the Balkans will continue to require active, 
comprehensive, and coordinated U.S. engagement, and that starts here in 
Washington both among the executive agencies and between the executive 
and legislative branches. We welcome the advice and the input of this 
committee and of the individual members of Congress.
    As we address the question of ``Unfinished Business in the 
Balkans,'' I would like to define the business we are trying to finish; 
it is nothing less than the completion of the President's vision of a 
Europe whole, free, and at peace.
    As Under Secretary Grossman noted in his address to the North 
Atlantic Council in November of last year, ``our focus must be on 
integrating the region into the community of Euro-Atlantic values: 
democracy, rule of law, and individual freedom.''
    As he stated, ``bringing the Balkans into Euro-Atlantic 
institutions is our goal,'' and we are dedicating all the means 
available to us toward this end. As he concluded, ``we are not 
departing the Balkans; we are bringing the Balkans back into Europe.''
    There are obstacles in our path:

  <bullet> A decade of conflict has left ethnic division and economic 
        devastation.

  <bullet> War criminals remain at large; and nearly one million 
        refugees and internally displaced persons remain displaced.

  <bullet> Porous borders and weak rule of law structures present 
        serious human rights and security concerns, particularly in the 
        post-9/11 world.

  <bullet> The transition from a focus on aid to a concentration on 
        trade has gone slowly.

    Yet we have made important strides to ensure self-sustaining 
progress:

  <bullet> On June 27, in electing Boris Tadic president of Serbia, the 
        people of Serbia voted decisively for domestic reform and Euro-
        Atlantic integration.

  <bullet> In the aftermath of the violence in March, the parties in 
        Kosovo are beginning to build needed bridges of dialogue and 
        address the central issue, that of moving forward on the 
        standards for Kosovo.

  <bullet> Progress in Bosnia has set the stage for the successful 
        conclusion of SFOR's mission in Bosnia, consistent with our 
        efforts to ``hasten the day'' and our ``in together, out 
        together'' commitment to our NATO allies.

  <bullet> With the historic expansion of NATO by seven members agreed 
        at Prague, including several states from the region, we are 
        working with the next generation of aspirants to ensure that 
        others follow to complete Europe.

  <bullet> In Macedonia, continued implementation of the Ohrid 
        Framework Agreement has taken us back from the brink of broader 
        regional conflict and taken Skopje to the threshold of 
        accession talks with the European Union.

  <bullet> Croatia has made impressive progress in its efforts to join 
        the Euro-Atlantic family of nations with its successful 
        application for European Union membership. While no firm date 
        has been given to begin negotiations, many feel Croatia could 
        start the process as early as 2005. Progress on refugee returns 
        in Croatia has occurred, though more still needs to be done.

  <bullet> Throughout the region, progress is underway to develop the 
        means to prosecute and adjudicate war crimes cases domestically 
        in a credible, fair and transparent way. This will leave the 
        International Criminal Tribunal for the Former Yugoslavia 
        (ICTY) to focus on those most responsible for the tragic events 
        of the past decade, most notably Radovan Karadzic, Ratko 
        Mladic, and Ante Gotovina, and let the nations of the region 
        strengthen their own capacities in rule of law and justice, 
        both in dealing with the past and in laying the foundation for 
        their future development.

  <bullet> Albania continues to make steady progress towards greater 
        Euro-Atlantic integration. Albania's foreign policy in the 
        region remains moderate and constructive, including with regard 
        to Kosovo. Our bilateral security relationship is excellent.

  <bullet> The democratically elected governments of the Balkans are 
        cooperating to address the regional problems they can only 
        solve together. Through fora ranging from the Adriatic Charter 
        to the Southeast Europe Cooperation Initiative (SECI), and in 
        their active support for the Global War on Terrorism, they are 
        contributors to their own stability and to international 
        security.

    Our vision for the region cannot be realized alone. It will require 
continued close cooperation and coordination with our Allies, who 
provide the vast majority of the stabilization forces and the foreign 
assistance, with the international and nongovernmental organizations 
active in the region, and with the people of the region and their 
democratically-elected representatives, who must ultimately make the 
hard decisions and implement the reforms necessary to realize a Euro-
Atlantic future.
    In FY 2004, the United States continued to provide assistance--
about $337,000,000 to promote civil society, good governance, effective 
rule of law, economic revitalization, and free media in Croatia, Bosnia 
and Herzegovina, Serbia and Montenegro, Kosovo, Macedonia and Albania. 
In addition, we continue to provide substantial support--more than $25 
million in 2004--to help support vulnerable refugees and internally 
displaced persons, including ensuring they have a real choice about 
whether they wish to return to their homes.
    High unemployment in the Balkans threatens stability and opens the 
door to ethnic tension and religious extremism. We have started a major 
effort to redirect programs to address the policy, capital, and legal 
constraints to job creation. Unreliable energy supplies have been cited 
as an impediment to regional development. In response, we are 
continuing our push to help create a regional energy market, linking 
the Balkans to Western Europe. Countries will be able to buy from and 
sell to the market based on marginal cost, and be required to adopt 
transparent market rules.
    Access to markets is essential for Southeast Europe whose 
individual economies are too small to encourage significant investment. 
We have supported the development of a network of WTO-compatible free 
trade agreements and supplied technical assistance in achieving quality 
standards, meeting certification requirements and introducing 
regulatory reform. We are also assisting the government in identifying 
and eliminating barriers to investment.

                         SERBIA AND MONTENEGRO

    Along with colleagues from the NSC and Department of Defense, I 
accompanied Under Secretary of State for Political Affairs Marc 
Grossman when he visited Belgrade last week, July 6-7. We were there to 
congratulate the Serbian people for their vote for democracy and reform 
in electing Boris Tadic their new President. With Mr. Tadic's election 
and a democratic coalition in power in Belgrade, we believe Serbia can 
succeed and we want to help. But our help--and the success of Serbia--
continue to depend on Serbia meeting the ambitious but achievable 
conditions necessary to advance its own aspirations of Euro-Atlantic 
integration.
    First and foremost among these conditions is cooperation with the 
ICTY.
    Belgrade's poor record on cooperation with the ICTY compelled 
Secretary Powell, in March of this year, to decline to certify Serbia 
pursuant to Section 572 of the Foreign Operations, Export Financing and 
Related Appropriations Act. As a result, new assistance for Serbia 
covered by this legislation has stopped. The Secretary's decision 
underscored the importance we continue to attach to Serbia's full 
cooperation with the ICTY as an international obligation. It is also an 
essential condition for progress toward membership in the Partnership 
for Peace, as noted in the communique from last month's NATO Summit in 
Istanbul, which called on Serbia and Montenegro to ``cooperate with 
ICTY and render all necessary assistance to secure the arrest and 
transfer to the jurisdiction of the Tribunal of war crimes indictees.'' 
I should also add that Belgrade must drop its suits in the 
International Court of Justice against eight NATO Allies stemming from 
the Kosovo air campaign before it can join Partnership for Peace.
    Serbia and Montenegro's EU aspirations are also on hold with the 
indefinite suspension of its feasibility study, the first step in the 
long accession process, because of insufficient progress on addressing 
political conditionality and constitutional issues. In its March 2004 
report on the Stabilization and Association process, the EU noted that 
Serbia and Montenegro is still failing to comply with its international 
obligations concerning cooperation with the ICTY.
    We also want to see Belgrade engage constructively on the question 
of Kosovo. Belgrade's restrained, constructive response to the events 
of March was an important element in containing the violence. Since 
March, we have encouraged Belgrade to be supportive of efforts to 
rebuild confidence between Kosovo's Serb and Albanian communities 
through dialogue, to reengage in dialogue in Pristina, and for Belgrade 
to participate in a reopening of the direct talks with Pristina on 
technical issues. We also welcome Belgrade's constructive engagement in 
a discussion on proposals for achieving better local government in 
Kosovo, including ideas for decentralization to bring government closer 
to the people it serves.

                                 KOSOVO

    Under Secretary Grossman's recent trip to the region was his third 
in the past eight months, and included a visit to Pristina as well as 
Belgrade. In both places, he focused on restoring momentum to our 
Review Date Strategy in the aftermath of violence in March that left 
nineteen dead and thousands displaced. There is no question that this 
violence represented a serious setback to the progress we had seen on 
implementing the internationally endorsed standards, which represent 
the only path toward resolving Kosovo's future status.
    Our immediate focus in the aftermath of the violence was two-fold:
    First, to hold the perpetrators accountable:
    To date, international prosecutors are pursuing serious criminal 
charges in 52 cases, and an additional 200 cases are now before local 
judges under close international supervision.
    And second, to repair homes that were damaged or destroyed, rebuild 
trust between the ethnic communities, and restore the credibility of 
the international community:
    To date, approximately 260 of 930 damaged homes have been rebuilt, 
and 205 are currently under construction, according to UNMIK and 
Kosovo's Provisional Institutions of Self-Government (PISG) sources. 
Financing is being provided by PISG. The PISG has earmarked 
approximately 17 million Euro of its funds for reconstruction, and has 
committed to complete all reconstruction by this fall.
    Of the more than 4,000 persons initially displaced in March, some 
1,600 have returned. This displacement was doubly harmful, in that it 
undermined the slow progress on minority returns we had made in the 
past years. Prior to the March violence, Kosovo had seen the return of 
nearly 10,000 displaced persons to areas in which they are a minority, 
and the flow appeared to be increasing slowly. However, the 
overwhelming majority of those displaced in 1999-2000 remain so to this 
day. Less than five percent of the internally displaced persons who 
fled in 1999-2000 have returned to their homes.
    Underlying these efforts is the broader question of security for 
all communities in Kosovo. The NATO-led security force, KFOR, has 
reviewed its practices in order to ensure that it is fully prepared to 
maintain a safe and secure environment, operating in close coordination 
with the UN and local police. At the NATO Summit in Istanbul in June, 
NATO concluded that it will maintain its present force levels in 
Kosovo. This will be reviewed in the fall as part of NATO's Periodic 
Mission Review (PMR) process.
    Security will ultimately require more than the ability of the 
international community to deter violence. It will require dialogue 
between the parties, and we are working intensively, with NATO and EU 
representatives, to start a ``Security Advisory Group'' that will bring 
together international and local representatives.
    It will also require strong leadership by the new Special 
Representative of the Secretary-General, Soren Jessen-Petersen. He will 
have our strong support as he works to invigorate the standards 
implementation process and to reform the bureaucracy of the UN Mission 
in Kosovo. We have offered to provide him a strong American deputy to 
assist him in these important tasks.
    Despite the March violence, we remain resolved to implement our 
Review Date Strategy, and to hold Kosovo institutions accountable for 
implementing the standards. To do otherwise--by accelerating the 
timeline of the mid-2005 review of progress, or to pre-ordain its 
findings--would be to reward the violence.
    Kosovo has established basic democratic structures under free and 
fair elections. It must now focus its energies on: strengthening these 
institutions, securing the rule of law, ensuring that all displaced 
persons who wish to return are able to do so without fear, and 
undertaking a dialogue with Belgrade.
    Kosovo's ability to meet these tasks will require that everyone in 
Kosovo participate in the standards implementation process. An 
important part of that process is efforts of Kosovo leaders and UNMIK 
to devise a plan to reform governmental structures to devolve more 
authority to the local level. Whether termed ``decentralization'' or 
``effective local government,'' such reform is key to the core issue of 
Kosovo's multiethnic future, a future in which local communities of all 
national groups have the authority to govern their own affairs and to 
help ensure their own security.
    An encouraging step forward occurred late in June, when Kosovo Serb 
and Kosovo Albanian leaders met for the first time in Pristina since 
before the March violence in a meeting organized by a U.S. NGO and 
hosted by the U.S. Chief of Mission in Pristina. A similar meeting 
occurred July 8 when these leaders met together with Under Secretary 
Grossman and his delegation. On both occasions, the parties discussed 
in a forthright fashion important issues of security, reconstruction, 
and reconciliation. We will continue to foster this spirit of dialogue 
in Kosovo.

                         BOSNIA AND HERZEGOVINA

    Bosnia and Herzegovina is approaching a watershed moment in its 
post-conflict transition. At Istanbul, NATO Heads of State and 
Government agreed to conclude the SFOR mission at year's end. This 
decision is recognition of NATO's success in ending a war, and Bosnia's 
progress on the path to recovery.
    For the first time since Dayton, Bosnia is in the process of 
establishing the state institutions essential for both stability and 
multiethnicity:
    The once separate and adversarial entity militaries and 
intelligence services are now coming under the command and control of 
the Bosnian state.
    New State prosecutors are trying major criminal and corruption 
cases in new State courts under a new State criminal code.
    State revenues to sustain these new institutions will receive a 
much-needed boost with the ongoing reform of the Customs and Tax 
administration.
    But this progress is not yet irreversible. Ethnic politics remain a 
divisive force within and between communities. Unnecessary and bloated 
government structures consume over half of GDP, and current levels of 
economic growth are not sufficient to overcome Bosnia's massive trade 
imbalance and declining levels of international assistance. Local 
authorities are only gradually taking full responsibility for their own 
destiny. The High Representative, Lord Ashdown, continues to set the 
agenda and the pace for reform, using his powers to impose legislation 
and to remove officials when necessary.
    Most recently, Lord Ashdown was forced to take action against 
Republika Srpska officials and the Serbian Democratic Party, the party 
of Radovan Karadzic, for failing to take action to apprehend Karadzic 
and other persons indicted for war crimes. As we have long stated, no 
single act would do more to advance peace and justice in Bosnia than 
the apprehension of Radovan Karadzic. Our efforts toward this end--
including dismantling the financial and logistical support network that 
sustains him and other fugitives--will continue.
    While SFOR is concluding, there will be structures in place to 
protect our substantial investment and to confront the challenges that 
remain. The EU will lead a new security mission, capable of supporting 
international civilian organizations and addressing key issues 
including organized crime.
    NATO will continue to play an active and visible role in Bosnia. 
Under U.S. leadership, a new NATO headquarters in Sarajevo will play a 
central role in apprehending war criminals, counterterrorism, and 
defense reform.

                               MACEDONIA

    In stark contrast to where it was just two years ago, Macedonia has 
moved from interethnic conflict to reconciliation, becoming a more 
resilient democracy and contributing to U.S. policy goals of peace and 
stability in the region and beyond. Neither President Boris 
Trajkovski's tragic death in February, nor the March unrest in Kosovo, 
proved a danger to Macedonia's stability or deterred it from the path 
of political, military and economic reform. Macedonia's success owes 
much to the efforts of the international community, which engaged to 
deter broader conflict, but most of all it is the achievement of the 
people of Macedonia.
    Much of that credit goes to the late President Trajkovski, a 
staunch ally of America and a good friend of many in this room. The 
Framework Agreement, long his primary focus, has become his lasting 
legacy.
    With the election of former Prime Minister Crvenkovski to succeed 
Trajkovski as president in overall free and fair elections in April, 
and with the parliament vote for former Interior Minister Kostov as 
Prime Minister in early June, Macedonia's multiethnic governing 
coalition remains committed to peace, stability and interethnic 
tolerance.
    And it shows:
    For the first time since 1993, Macedonia has no foreign military 
peacekeeping mission on its soil.
    The government is making progress on reforms, including important 
inroads against corruption through some key arrests.
    Macedonia has applied formally for EU membership and is hoping to 
become a candidate country within the next year.
    In this regard, we and our international community partners in 
Skopje continue to support the coalition's efforts to bring the final 
major pieces of decentralization legislation required by the 2001 Ohrid 
Framework Agreement to completion this summer, in preparation for 
municipal elections this October. While work remains, we want to see 
Macedonia continue on the right path.

                                CROATIA

    And as we do with Croatia.
    When Croatia's new government came to power, we resolved to judge 
it by its actions.
    Since the beginning of 2004, Croatia has turned over four Croatian 
and five Bosnian Croat indictees to the ICTY. We applaud these positive 
moves by Zagreb officials and hope this trend will continue with the 
arrest and transfer of Ante Gotovina.
    Working with its partners in the Adriatic Charter, Albania and 
Macedonia, Zagreb is preparing to assume the responsibilities of NATO 
membership. As noted in the communique at the Istanbul Summit, NATO 
insists on full cooperation with the ICTY and bringing to justice all 
those indicted by the Tribunal. The communique also acknowledges the 
progress that all three states have made in their quest for NATO 
membership and tasked NATO Foreign Ministers to keep the enlargement 
process under continual review.
    One of the criteria for evaluating an aspirant's candidacy is 
regional cooperation, and Croatia has taken steps to improve its 
relations with neighboring states. Economic and political contacts are 
expanding, and increased attention has been given to the situation of 
ethnic minorities within Croatia. The current government has made 
positive, concrete steps on returns and appears to be making a 
concerted effort to meet aggressive deadlines for settling housing 
reconstruction and occupancy rights cases. Of the 190,000 homes damaged 
or destroyed by the war, 125,000 have been reconstructed by the 
government and the international community; most Croatian homes have 
been reconstructed, and now the government is focusing on 
reconstructing homes belonging to ethnic Serbs. When the current 
government assumed office in December, there were approximately 500 
cases of illegal occupancy left unresolved (of 2000 plus at the end of 
the war). Now only some 55 remain to be resolved--a resolution of some 
90 percent in six months. After years of avoiding the issue, the 
government has made some progress towards providing apartments for 
tenancy rights holders, but much work remains to be done.
    Of the nearly 300,000 Serbs who fled Croatia during the conflict 
there, only approximately 137,000 have returned. More than 200,000 
refugees remain displaced in Serbia and Montenegro and Bosnia and 
Herzegovina, and a recent OSCE study indicates that as time goes on, 
they are less likely to return and more likely to integrate into the 
community in which they have been living for the past decade. We 
continue to work closely to encourage the government to ensure local 
government cooperation provides a welcoming atmosphere for those 
displaced persons who wish to return to their homes, including working 
to ensure groundless war crimes indictments against Croatian Serb 
refugees are dismissed.
    We continue to work with Croatia in securing an agreement to exempt 
U.S. citizens from the International Criminal Court. With such an 
agreement, also known as an Article 98 agreement, the United States 
will be better able to assist Croatia in carrying out the needed 
military reforms for NATO membership.
    We also are working closely with Zagreb on a possible troop 
contribution to the Coalition forces in Iraq. Currently, Croatia has 
deployed troops to the ISAF mission in Afghanistan, where they have 
performed admirably. We look forward to the day when the Coalition 
brining peace and stability to a free Iraq includes Croatian forces.

                                ALBANIA

    Albania continues to be a staunch ally in the Global War on 
Terrorism. Albanian troops are serving with distinction in Afghanistan 
and Iraq, and the government has recently stated its intention to 
increase its forces in Iraq.
    The government has frozen terrorist assets and maintains a watchful 
eye against foreign extremist elements seeking to influence the 
overwhelmingly moderate Muslim community. With U.S. and international 
donor help, Albania has made gains in controlling corruption, 
increasing transparency, and curbing organized criminal activities such 
as human trafficking and narcotics smuggling. Albania's ability to hold 
free and fair parliamentary elections in summer 2005, and particularly 
its ability to resolve election disputes according to the rule of law, 
will be an important indicator of the country's progress towards 
democratization.

                               CONCLUSION

    Mr. Chairman, the issues you have asked me to address here today, 
the ``Unfinished Business in the Balkans,'' remain daunting when laid 
out so starkly. But with your great experience in this part of the 
world you know well how long a road we have traveled in the past 
decade. Ten years ago, when the region was torn by wars fostered by 
those who fuelled ethnic hatred, reconciliation was barely a dream. I 
wish I could say that every day that dream seems closer to being 
realized, but even in the ``two steps forward, 0ne step back'' manner 
in which progress is made in the Balkans we have much cumulative 
success to celebrate. Mr. Chairman, with the support of the Congress we 
will continue to press forward, and with perseverance I believe we will 
see all the nations of the Balkans take their rightful place in that 
Europe of President Bush's vision at last whole, free and at peace.
    Thank you, Mr. Chairman, and I look forward to answering any 
questions you may have.

    Senator Voinovich. Thank you, Ms. Stephens.
    Our next witness is Mira Ricardel. We are very happy to 
have you with us.

 STATEMENT OF MIRA R. RICARDEL, ACTING ASSISTANT SECRETARY OF 
  DEFENSE, INTERNATIONAL SECURITY POLICY, U.S. DEPARTMENT OF 
                            DEFENSE

    Ms. Ricardel. Mr. Chairman, thank you for the opportunity 
to testify on the Balkans. It is indeed an important subject. I 
will summarize my statement that I have submitted to the 
committee and ask that it be included for the record.
    As President Bush has said, we went in to the Balkans 
together with our NATO allies and we will go out together. Our 
military approach in Bosnia and Herzegovina and Kosovo has been 
to adjust force levels in response to changing security 
situations. A fundamental objective with all of the Balkan 
countries is for us to enable them to provide for their own 
security as rapidly as possible and to facilitate their 
integration into Euro-Atlantic institutions.
    During the recent NATO summit at Istanbul, heads of state 
and government agreed to conclude NATO's successful SFOR 
operation in Bosnia and Herzegovina by the end of the year. 
NATO headquarters, headed by an American general, will form the 
alliance's residual military presence in that country. The 
headquarters will have the principal task of supporting 
Bosnia's already promising defense reforms, advancing counter-
terrorism and supporting the apprehension of indicted war 
criminals such as Radovan Karadzic.
    As you have noted in your opening remarks, and as my 
colleague, Kathy Stephens has noted, challenges remain in 
Kosovo. Although progress is being made, it is slow, probably 
slower than we would like. There are still significant 
difficulties with freedom of movement and return of ethnic 
minorities. The primary threat continues to come from internal, 
loosely organized extremist and criminal groups, some of which 
have transnational links.
    KFOR is tasked with building a secure environment to 
facilitate democracy, including deterring renewed hostility, 
ensuring public safety and order, supporting humanitarian 
assistance, and coordinating with the U.N. interim 
administration mission in Kosovo, also known as UNMIK. Pursuant 
to U.N. Security Council Resolution 1244, UNMIK is responsible 
for civilian administration in Kosovo, including the 
maintenance of civil law and order.
    KFOR started in 1999 with a force totaling 40,000 troops on 
the ground. There are now less than 18,000, of which about 
1,800 are U.S. At Istanbul, NATO heads of state confirmed that 
a significant KFOR presence remains essential to security and 
to promote a political settlement.
    Unfortunately, this past March a wave of mob violence broke 
out in the province. Although brief, the spasm of violence 
claimed 19 lives in several ethnic communities. Property damage 
was significant and the Serbian community suffered the greatest 
losses. KFOR responded swiftly, but there is room for 
improvement. A NATO lessons learned study highlighted areas 
where KFOR could increase its effectiveness. In particular, the 
troops in KFOR need to be less hampered by national 
restrictions. U.S. forces performed admirably during the 
crisis. They are not subject to any limitations or restrictions 
identified in NATO's study.
    We have adopted a regional approach to managing military 
forces in the Balkans. U.S. European Commander General Jim 
Jones has placed all U.S. forces serving in the Balkans under 
the operational control of Admiral Johnson, who commands NATO's 
Joint Forces Command in Naples, Italy. This provides much more 
flexibility to move forces around the region as needed. Under 
the joint operations area, or JOA, approach, NATO conducts a 
periodic mission review, or PMR, every 6 months, which 
evaluates the security situation on the ground and makes 
recommendations, including on force levels. The review is then 
submitted to the North Atlantic Council for decision. At 
Istanbul, the North Atlantic Council, or NAC, decided not to 
reduce KFOR's size at the present.
    The JOA also provides for the use of reserve forces at the 
tactical, operational, and strategic levels. For example, 
during the March riots in Kosovo, NATO was able to surge an 
additional 3,000 troops within a few days, the first arriving 
in less than 24 hours.
    Of continued concern is that indicted war criminals, 
particularly Radovan Karadzic, Ratko Mladic, and Ante Gotovina, 
remain at large. As long as Karadzic is not apprehended, Bosnia 
will not be able to achieve Euro-Atlantic integration, and the 
same applies to Serbia and Montenegro. Full cooperation on war 
crimes issues remains an important condition for normalizing 
U.S. military-to-military relations with Serbia and Montenegro.
    On June 19, 2003, Serbia and Montenegro formally applied 
for membership in NATO's Partnership for Peace. We support 
Serbia and Montenegro's PfP membership once it meets remaining 
conditions set by NATO, which are: full cooperation with The 
Hague, and dropping the suits at the International Court of 
Justice against eight NATO countries that stemmed from the 
Kosovo air campaign of 1999.
    We are hopeful that the June 27 election of pro-Western 
reformer Boris Tadic as Serbian President will be a turning 
point and that he will succeed in clearly and firmly orienting 
Serbia and Montenegro toward NATO and the West. As Minister of 
Defense, he spearheaded several concrete defense reforms, 
including empowering and reorganizing the Ministry of Defense 
to provide greater civilian control of the military, reducing 
the armed forces, reshaping the military intelligence service 
in accord with democratic norms, and taking steps to eliminate 
corrupt Milosevic-era institutions and individuals.
    DOD is working to develop a program of technical assistance 
and other activities to assist the Ministry of Defense in its 
reform efforts.
    Mr. Chairman, I am also pleased to announce the United 
States and the Government of Serbia and Montenegro have agreed 
to establish a state partnership program with the Ohio National 
Guard. We think that that will help them advance civil military 
relations, and we thought that would be particularly pleasing 
news to you, sir.
    Macedonia, Croatia, and Albania are on the path to NATO 
membership. They are participating in NATO's Membership Action 
Plan, which includes the development of reform plans for their 
military establishments. The biggest challenges for these 
countries are to maintain a steady pace on defense reform, 
strengthen interoperability with NATO, and develop niche 
capabilities.
    We have completed a defense assessment for each of these 
three countries to assist them with planning and implementing 
defense reform priorities and building more flexible, mobile 
forces. While these countries continue to focus on internal 
challenges, they are also making valuable contributions to 
global security and freedom. All three are involved in the 
global war on terrorism. Macedonian and Albanian troops are 
participating in ISAF in Afghanistan. Macedonian forces are 
deployed with the 1st Infantry Division in north central Iraq, 
and Albanian forces are stationed in the north in the Mosul 
area. In early 2003, Croatia deployed military police to 
participate in the ISAF mission in Afghanistan, and this 
initial 6-month rotation has been renewed three times.
    Secretary Rumsfeld has remarked how much Europe and NATO 
have changed in the past decade. The Balkans have certainly 
changed dramatically in that period as well, for the better. 
But as you have pointed out, there is still work to be done. As 
post-Communist countries, they must institute democratic 
reforms across the board. The military is one important 
component of the larger structural changes that must take 
place. With our participation in NATO operations and our 
bilateral military cooperation with each of the countries in 
the region, we are helping them both take responsibility for 
their own security and make their own contributions to peace in 
Europe and the world.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Ricardel follows:]

                 Prepared Statement of Mira R. Ricardel

    Mr. Chairman and members of the Committee, thank you for inviting 
me to testify about on-going efforts by countries in the Balkans to 
normalize their military relations with the U.S. and NATO, and to 
ensure regional stability. Recently the U.S. Department of Defense held 
annual bilateral defense consultations with Macedonia and Albania and 
will do so next week with Croatia. All three countries are making 
impressive strides to advance defense reforms and prepare themselves 
for NATO membership. Furthermore, they have made the transition from 
consumers of security assistance to contributors as allies in the 
Global War on Terrorism.
    One of the most important lessons we have taken from our 
experiences in Bosnia-Herzogovina is the need to encourage self-
reliance from the very beginning--to avoid actions that create an 
enduring dependency and help these societies take responsibility for 
their own governance and security as soon as possible. This lesson was 
applied well over a year ago in Macedonia as NATO successfully 
completed Task Force Amber Fox to provide a safe and secure environment 
for implementation of the Ohrid Framework Agreement following 
widespread civil conflict in Macedonia in 2001.
    As President Bush has said, we went in to the Balkans together with 
our NATO Allies and we will go out together. Our approach is to adjust 
force levels in response to changing security situations, and enable 
our partners in the Balkans to provide for their own security as 
rapidly as possible.

                         BOSNIA AND HERZEGOVINA

    During the recent NATO Summit at Istanbul Heads of State and 
Government agreed to conclude NATO's successful SFOR operation in 
Bosnia and Herzegovina by the end of the year. We can all take pride in 
this accomplishment along with the Bosnian people. The Summit stressed 
that while NATO's military relations with Bosnia are being placed on a 
normalized footing, NATO's long-term commitment to Bosnia remains 
unchanged. A NATO headquarters, headed by an American general, will 
form the Alliance's residual military presence in the country. The 
headquarters will have the principal tasks of supporting Bosnia's 
already promising defense reforms, advancing counter-terrorism, and 
supporting the apprehension of major indicted war criminals such as 
Radovan Karadzic.
    In March Bosnia officially formed a state-level ministry of defense 
and general staff signaling a new era in the country's military 
structure. This was the outgrowth of excellent work by the Bosnians, 
High Representative Lord Paddy Ashdown, and former Senate staffer and 
Assistant Secretary of Defense, Jim Locher, who heads the Bosnia 
Defense Reform Commission. Bosnia is getting closer to joining PfP. 
However, as the Istanbul Summit Communique notes, Bosnia has failed to 
live up to its obligation to cooperate fully with The Hague War Crimes 
Tribunal, largely due to obstructionist elements in the Republika 
Srpska. The U.S. strongly supports the strong actions of High 
Representative Ashdown to dismiss from office Serb officials seeking to 
obstruct Bosnia's efforts to render indicted war criminals to justice.
    Bilaterally, Bosnia and Herzegovina has been responsive to U.S. 
concerns. Bosnia was one of the first countries to ratify an Article 98 
agreement to protect U.S. service personnel. Recently Bosnia offered a 
troop contribution of explosive ordnance disposal experts to the 
coalition in Iraq.

                                 KOSOVO

    Challenges remain in Kosovo, although progress is being made. The 
goal in Kosovo is to establish the rule of law and rebuild institutions 
capable of providing a safe, secure and prosperous environment for all 
of its inhabitants, while ensuring that it does not become a safe haven 
for extremism, terrorism or criminal elements. Significant difficulties 
remain with freedom of movement and return of ethnic minorities. The 
primary threat continues to come from internal, loosely organized 
extremist and criminal groups, some of which have transnational links.
    KFOR is tasked with building a secure environment to facilitate 
democracy--including deterring renewed hostility, ensuring public 
safety and order, supporting humanitarian assistance and coordinating 
with the UN Interim Administration Mission in Kosovo (UNMIK). Pursuant 
to UN Security Council Resolution 1244, UINMIK is responsible for 
civilian administration in Kosovo, including the maintenance of civil 
law and order. The review date strategy, endorsed by the UN Security 
Council requires measurable progress in the development of functional 
political, economic and judicial institutions before determining 
Kosovo's final status.
    KFOR started up in 1999 with a force totaling 40,000 troops on the 
ground. There are now less than 18,000 (1,800 U.S.). At Istanbul, NATO 
heads of state confirmed that a significant KFOR presence remains 
essential to security and to promote a political settlement. This past 
March, a wave of mob violence broke out in the province. During the 
March 17-19 period of violence, international peacekeepers actually 
faced hostile fire.
    Although brief, the spasm of violence claimed 19 lives in several 
ethnic communities. Property damage was significant, and the Serbian 
community suffered the greatest losses. These events highlighted that 
the stability we had witnessed in prior months was fragile. It also 
revealed some underlying weaknesses of UNMIK and the Kosovo Police 
Service in coping with threats to law and order.
    KFOR's swift response was essential in halting the March violence. 
A NATO ``lessons learned'' study highlighted areas where KFOR could 
enhance its effectiveness, in particular, the troops in KFOR need to be 
less hampered by national restrictions.
    SACEUR General Jones is seeking to eliminate these restrictions--
also known as national caveats--on how COMKFOR can use the troops. U.S. 
forces performed admirably during the crisis; they are not subject to 
any limitations or restrictions identified in NATO's study. KFOR's 
robust rules of engagement need to be fully applied by all troop 
contributors. Also KFOR soldiers need to have the equipment and 
training to handle riot control. Intelligence capabilities need 
improvement in order to better anticipate and then act to prevent such 
incidents in the future. Finally, KFOR needs to reduce the ``tooth to 
tail'' ratio to ensure that the maximum number of troops are actively 
patrolling.
    The United Nations Mission in Kosovo (UNMIK) needs to take steps to 
strengthen its performance. We consider this a top priority, especially 
in the field of civil security, where the local multi-ethnic Kosovo 
Police Service is being developed so that it may in the future handle 
many duties KFOR must currently perform. This is essential. We look 
forward to the change in leadership at UNMIK, including a strong new 
Special Representative of the Secretary General (SRSG) in Soren Jessen-
Petersen and an American Principal Deputy.
    moving to a regional approach to force structure and deployment
    We have adopted a regional approach to managing military forces in 
the Balkans. USEUCOM Commander General Jim Jones has placed all U.S. 
forces serving in the Balkans under the operational control of Admiral 
Johnson who commands NATO's Joint Forces Command based in Naples, 
Italy. This provides much more flexibility to move forces around the 
region as needed. Under the Joint Operations Area (JOA) approach, NATO 
conducts a Periodic Mission Review (PMR) every six months which 
evaluates the security situation on the ground and makes 
recommendations, including on force levels. The Review is submitted to 
the North Atlantic Council (NAC) for decision. At Istanbul the NAC 
decided not to reduce KFOR's size at present.
    The JOA provides for the use of reserve forces at the tactical, 
operational and strategic levels. These forces are able to deploy 
rapidly from within the theater and from ``over-the-horizon'' locations 
in the event of a crisis. For example, during the March riots in 
Kosovo, NATO was able to surge an additional 3,000 troops within a few 
days, the first arriving in less than 24 hours.
    In both Bosnia and Kosovo we have pioneered the use of small, 
strategically-positioned ``forward operating bases'' to inject an 
international troop presence in specific areas. This presence advances 
important goals such as inter-ethnic cooperation and refugee returns by 
the sense of confidence and security having troops in local areas 
provides.

                         INDICTED WAR CRIMINALS

    Of continued importance and concern is that indicted war criminals, 
particularly Radovan Karadzic, Ratko Mladic, and Ante Gotovina, remain 
at large. Protected by criminals associated with extremist parties, 
Karadzic's continued influence on Bosnian Serb politics is a cancer in 
the body of the Bosnian state. As long as Karadzic and his associates 
move about freely, Bosnia will not be able to achieve Euro-Atlantic 
integration. The same applies to Serbia and Montenegro which continues 
to harbor Ratko Mladic. Full cooperation on war crimes issues remains 
an important condition for normalizing U.S. military to military 
relations with Serbia and Montenegro.

                         SERBIA AND MONTENEGRO
 
   On June 19, 2003 Serbia and Montenegro formally applied for 
membership in the Partnership for Peace. We support Serbia and 
Montenegro's PfP membership once it meets remaining conditions set by 
NATO, which are: (1) full cooperation with The Hague; and (2) dropping 
the suits at the International Court of Justice against eight NATO 
countries stemming from the Kosovo air campaign of 1999.
    We hope that the election on June 27 of pro-Western reformer Boris 
Tadic as Serbian President will be a turning point and that he will 
succeed in clearly and firmly orienting Serbia and Montenegro toward 
NATO and the West. As Minister of Defense he spearheaded several 
concrete defense reforms, including: empowering and reorganizing its 
Ministry of Defense to provide greater civilian control of the 
military; reducing its armed forces, reshaping its military 
intelligence service in accord with democratic norms, and taking steps 
to eliminate corrupt Milosevic-era institutions and individuals.
    DOD is working to develop a program of technical assistance and 
other activities to assist the Ministry of Defense in its reform 
efforts once Serbia and Montenegro meets the necessary conditions set 
by NATO to join PfP. We hope Serbia will also sign an Article 98 
agreement soon. A military bilateral affairs officer is in place 
working closely with the Ministry of Defense on actions to advance 
defense reforms. Meanwhile, we are setting the stage for future 
cooperation through the Joint Contact Team Program (JCTP) run by the 
U.S. European Command and programs carried out by the Marshall Center. 
Eight scheduled programs have been launched with the Serbia and 
Montenegro Armed Forces for 2004 on diverse subjects such as ``Civilian 
Control of the Military,'' to how to develop NATO-compatible national 
security strategies. Current plans call for 17 such programs to take 
place next year.
    Mr. Chairman, I am also pleased to announce the U.S. and the 
Government of Serbia and Montenegro have agreed to establish a State 
Partnership Program with the National Guard. The Ohio National Guard 
has kindly offered to serve as SaM armed forces' state partner. This is 
an important program that provides countries ongoing close links to the 
U.S. military in support of defense reform and transformation 
objectives.

                      MACEDONIA, CROATIA, ALBANIA

    Macedonia, Croatia and Albania are on the path to NATO membership. 
They are participating in NATO's Membership Action Plan, which includes 
the development of reform plans for their military establishments. The 
biggest challenge for these countries is to maintain a steady pace on 
defense reform, strengthen inter-operability with NATO, and develop 
niche capabilities.
    We are pressing political leaders to continue making the tough 
decisions that are necessary for transformation. We have completed a 
Defense Assessment for each of these three countries to assist them 
with planning and implementing defense reform priorities. They are 
taking steps to reduce the sizes of their respective armed forces and 
to restructure them to build more flexible, mobile forces that can 
better contribute to NATO. In Macedonia and Albania, for example, we 
have Defense Department contractors advising the governments on how 
best to implement reforms they have decided to make.
    During our bilateral defense consultations with each of these 
countries, we discuss how the Department of Defense can assist with 
defense reform efforts, NATO interoperability and border security 
capabilities to protect against proliferation of weapons of mass 
destruction (WMD). While these countries continue to focus on the 
challenges that remain inside their own borders, and are active in PfP, 
they also are making valuable contributions to global security and 
freedom. For example, all three have supported the U.S.-led coalition 
in the Global War on Terrorism. Macedonian and Albanian troops are 
participating in ISAF in Afghanistan and are serving side by side with 
U.S. troops in Iraq. Macedonian forces are deployed with the First 
Infantry Division in North Central Iraq, and Albanian forces are 
stationed in the North in the Mosul area. In October 2002 Croatia 
intercepted the Boka Star, a ship that was transporting military items 
to countries of concern. In early 2003, Croatia deployed military 
police to participate in the ISAF mission in Afghanistan. This initial 
six month rotation has been renewed three times. Croatia is also 
seriously considering contributing to a Provincial Reconstruction Team 
in Afghanistan. We hope that the Government of Croatia will sign an 
Article 98 agreement with the U.S. soon.
    Military to military relations between Albania, Croatia and 
Macedonia have been expanding, underscored by the June 16 meeting of 
defense ministers in Ohrid. These MAP countries have shown they are 
serious about their commitment to defense transformation and are 
prepared to join the ranks of NATO allies in tackling the security 
challenges of the 21st century.

     CONTRIBUTING TO REGIONAL STABILITY AND INTERNATIONAL SECURITY

    Secretary Rumsfeld has remarked how much Europe and NATO have 
changed in the past decade. The Balkans has certainly changed 
dramatically in that period as well--for the better--but there is work 
still to be done. As post-communist countries, they must institute 
democratic reforms across the board--the military is one important 
component of the larger structural changes that must take place. With 
our participation in NATO operations, and our bilateral military 
cooperation with each of the countries in the region, we are helping 
them both take responsibility for their own security and make their own 
contributions to peace in Europe and the world.

    Senator Voinovich. Thank you very much.
    After the March 17 incidents, there was an evaluation of 
KFOR, and I would be interested in your perspective on lessons 
learned. I saw some tapes of a sitaution where KFOR forces 
looked on while people literally burned down a church, and 
there was an uneven understanding of what responsibilities KFOR 
had under the circumstances that arose.
    I was pleased that Admiral Johnson was able to move--I 
thought it was 1,800, but they moved in some 3,000 troops, 
which is pretty impressive they were able to get them in there.
    First of all, how many troops do we have right now in 
Kosovo? And now that we have got a new individual succeeding 
Holkeri, what changes do you think need to be made in KFOR in 
order to bring about freedom of movement and human rights and 
rule of law?
    Ms. Ricardel. Mr. Chairman, would you like me to start with 
the military lessons learned?
    Senator Voinovich. Yes, I would.
    Ms. Ricardel. Given exactly the incidents that you pointed 
out, NATO immediately moved to look at what could be done 
better and differently. One of the major problems that we have 
had in KFOR--and it is not unique to KFOR--is national 
restrictions or national caveats. These include restrictions 
that certain countries place on their forces to be involved in 
riot control. They involve restrictions on the use of lethal 
force, for example, in certain conditions that do not 
necessarily just affect their own personal safety. There are 
restrictions that some countries had on the movement of their 
troops from one sector to another. This has greatly complicated 
the commander's ability to move forces effectively, quickly and 
swiftly.
    So what we have done bilaterally and also within NATO, what 
SACEUR General Jones has done is to raise this as a high 
priority issue with countries to ask them to limit their 
restrictions or lift them completely, which is the way U.S. 
troops operate. That is why U.S. troops performed so well, is 
that they were able to be deployed as needed.
    In addition, KFOR has taken other measures, for example, 
stepping up presence patrols in Serbian communities and 
neighborhoods. These patrols are being conducted jointly with 
the Kosovo police service and UNMIK police.
    We have also tried to address the need for greater 
coordination, information sharing and coordinated activity; a 
Kosovo-wide security advisory group has been formed with the 
leaders of these various institutions, but also leaders of 
ethnic communities. We need to be able to better monitor, 
coordinate, and streamline our actions.
    So it is really a two-part problem, but we are trying to 
address it. SACEUR is trying to address it within NATO and the 
NATO Secretary General, but we are also trying to address it 
bilaterally with countries.
    If you need more details on the specific countries, I 
cannot do that in open session, but we would be pleased to 
provide it to you, sir.
    Senator Voinovich. I would like that very much.
    How many NATO troops do we have altogether?
    Ms. Ricardel. I am sorry. We have about 18,000.
    Senator Voinovich. So there are 18,000 KFOR troops.
    Ms. Ricardel. And 1,800 U.S.
    Senator Voinovich. Originally we had how many?
    Ms. Ricardel. We had about 44,000 total, and the U.S. was 
about 6,000 of that.
    Senator Voinovich. So we are down to 1,800.
    Ms. Ricardel. Right.
    Senator Voinovich. What is the total again?
    Ms. Ricardel. The total now is just around 18,000.
    Senator Voinovich. Do you believe that is adequate to get 
the job done?
    Ms. Ricardel. Yes, sir, and I believe that is the consensus 
view of our allies. We go through this 6-month periodic review 
and look at the security situation on the ground, not just in 
terms of what are the force levels, but what is the mix of 
forces and what it is we can do better. And we have 
supplemented that, as I have said, with this NATO lessons 
learned study, specifically with respect to Kosovo.
    Senator Voinovich. I really think that visiting with the 
other countries in terms of the restrictions that they have on 
their troops is very important because if the people that were 
responsible for the destruction are aware that NATO troops are 
limited, then they are going to continue to do it if they so 
choose. So I think that a new chapter is very, very important 
in terms of what are the responsibilities of KFOR, and we ought 
to make every effort we can to get those other countries to 
step up to the table.
    The other concern I have is in Bosnia. There has been some 
concern about whether or not we are going to pull our people 
out of Bosnia. The last time I was there--I must admit it was a 
couple years ago, but I will never forget traveling in Tuzla 
with our men from Task Force Eagle. I asked them what happens 
when you leave, and the same response I received, several 
others received when they were traveling, and that is they were 
going to start killing each other again. In spite of the fact 
that we have a new governmental structure there, there are many 
of us that are concerned that things are not really working and 
that if it was not for Paddy Ashdown and his involvement there, 
that things could deteriorate.
    The real issue is--Ms. Stephens, you may be better able to 
answer this question--does the political structure that we have 
in place there get the job done? From what I understand, in the 
Republika Srpska, the nationalism growing in, the Croatian 
part, nationalism is growing. Nationalism has been so bad in 
the Republika Srpska that I think Ashdown fired a bunch of 
people that were in the government. So it does not seem to me 
that after all the time we have been there, that we have seen 
that much progress.
    Ms. Stephens. Yes, thank you, Mr. Chairman. Perhaps I could 
say a word about Bosnia and go back to Kosovo as well. I had a 
comment on that, if I may.
    At the Istanbul summit, as Assistant Secretary Ricardel has 
already noted, it was announced that SFOR would complete its 
mission at the end of this year and an EU force would take up a 
new mission in Bosnia and Herzegovina. We base this on our 
evaluation that the NATO mission, the SFOR mission, has 
completed and succeeded in its mission, which you will recall 
was to stop a war and to enforce the peace and to separate two 
warring armies.
    The situation in Bosnia and Herzegovina does still have a 
long way to go to be on that path to Euro-Atlantic integration, 
but we do think that the reforms over the past several years 
have been extremely important and very promising, notably in 
defense reform and the establishment of a state level defense 
institution, as well as on the intelligence side, and that the 
kind of mission that now needs to be performed in Bosnia and 
Herzegovina is one that is appropriate to the sort of force 
that the EU is looking to send in there.
    The other I think crucial point I would make is that NATO 
is not leaving Bosnia and Herzegovina. As Ms. Ricardel has 
noted, this NATO office that will be established in Bosnia will 
continue to work on the essential tasks of the search for 
indicted war criminals, counter-terrorism, and supporting 
further defense reform. In my several trips over the last 6 
months and talking to people on the ground and throughout 
Bosnia and Herzegovina, I think the sense is that balance may 
be about right, that the way we have defined these tasks allows 
us to have in place the kind of presence which will support 
Bosnia and Herzegovina and it will continue to need support as 
the reforms continue.
    Senator Voinovich. Ms. Ricardel.
    Ms. Ricardel. Yes. I think it is important to emphasize 
again that it is not a change in NATO's commitment. It is a 
change in the nature of our presence. And it is designed to 
reflect the changes on the ground and to focus on the different 
kinds of problems that Bosnia has today compared to what things 
were some years back. Paddy Ashdown's efforts have been quite 
significant in law and order. We expect that the European Union 
force will have a new and distinct mission and that NATO, as I 
mentioned, under the leadership of an American general, will 
take on the task of assisting defense reform, counter-
terrorism, apprehension of war criminals, and also intelligence 
sharing with the European Union.
    As Secretary Rumsfeld has pointed out in some of the 
remarks he has made, it is also important for the Bosnians to 
start taking greater responsibility for their own security and 
that a prolonged dependency is not healthy. So we want to do 
this responsibly and move them to the next phase.
    Senator Voinovich. Are there any plans that the presence of 
Paddy Ashdown and company--when will that end?
    Ms. Stephens. In fact, the steering board, which meets with 
the High Representative Paddy Ashdown every 3 months to 
review--the international body, of which we are a member, to 
kind of review where we are in Bosnia and Herzegovina has begun 
to talk about this, about the future of the office of the High 
Representative. As you say, it should not go on forever. Next 
year will mark the 10th anniversary of the Dayton Accords.
    I think we are beginning to talk with our allies and with 
Lord Ashdown about his key missions. And he has identified 
several key areas which, as the office of the High 
Representative is downsized, he wants to concentrate on. These 
are mostly in the areas of economic reforms, some continued 
defense reform, some further strengthening establishments of 
important state level institutions, including police, which was 
highlighted by Lord Ashdown when he took the recent action, as 
you noted, against elements of the Serbian Democratic Party in 
Republika Srpska, the need to establish a more effective state 
level policing institution. He has made clear that he is going 
to concentrate his efforts on that over the coming year, and 
that as we look to move Bosnia and Herzegovina further along 
that path, further along the path toward Partnership for Peace, 
that his mission there and the international presence there 
also needs to evolve and change.
    Senator Voinovich. Well, from what I have been able to 
read, it seems that the governmental structure that was laid 
out, I am not necessarily sure is getting the job done. It may 
be time for it to be looked at again to see how it can be set 
up so that he can leave, and that presence is not there.
    From a military point of view, part of the reason why we 
have troops there is because--is there any indication that we 
have al-Qaeda there? You are talking about terrorism. Is there 
concern about cells that are in Bosnia and Herzegovina?
    Ms. Stephens. Mr. Chairman, first, to go back in terms of 
the government structures, simply to say briefly I think we all 
recognize that the Dayton Accords and the Dayton arrangements 
were hard fought and hard won compromises, and I do not think 
anyone would claim that they are perfect. They have gotten us 
to where we are. Certainly we would hope that the elected 
leaders of Bosnia and Herzegovina would find a way to move from 
Dayton to better structures as they develop politically and 
economically.
    On the question of concerns about terrorist activities and 
al-Qaeda activities in particular in Bosnia and Herzegovina, 
this is an issue on which we have, over the past some time, 
worked closely and consulted closely with officials in Bosnia 
and Herzegovina. As of course you know, Bosnia and Herzegovina 
is a fairly secular society. It is not a place where we have 
found that radicalism breeds easily, but it is an area that we 
need to watch closely. The leaders there recognize they need to 
watch closely. And we have had some very good cooperation in 
terms of identifying organizations, charities which seem to be 
somewhat questionable and taking action to stop that.
    Senator Voinovich. Thank you.
    We have been joined by the ranking member of this 
committee, Senator Biden. Senator Biden, we welcome you. I know 
of your great interest in this area, and we have talked about 
it.
    Senator Biden. Well, Mr. Chairman, thank you very much. I 
apologize to the witnesses for being late. Mira, it was all Bob 
Dole's fault. I just want you to know that.
    I am only kidding. It was not. I was at another meeting and 
I am sorry.
    It is good to see you back here in this capacity. It was 
fun working with you back when no one would listen to any of 
us.
    Ms. Ricardel. Thank you, sir.
    Senator Biden. It is nice to have you back here. Thank you 
very much.
    Mr. Chairman, I have a statement. The good news about my 
being late is I will not read my statement. So I would ask 
unanimous consent my opening statement be placed in the record. 
I would like to ask a few questions, if I may.
    Senator Voinovich. Without objection.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    I'd like to begin by thanking my friend and colleague from Ohio, 
Senator Voinovich, for holding this hearing. His expertise and constant 
engagement in Balkan affairs provide great leadership here in the 
Senate and directly contribute to peace and stability in the Balkans.
    We have a particularly outstanding group of witnesses today, and 
I'm anxious to hear from them.
    I do, however, want to emphasize a few key points. First, like the 
former Yugoslavia's physical geography, its political development 
during the last few years has seen both mountains and valleys.
    The Yugoslav successor states have recovered from the blood-letting 
of the 1990s with varying success and at different speeds.
    To continue the geographic metaphor, the Balkans' tallest mountain, 
Triglav, is found in the most successful Yugoslav successor state, the 
Republic of Slovenia. In its own unassuming, business-like way, 
Ljubljana joined NATO at the end of March, and the European Union on 
May 1st--quite an achievement and, one would hope, a role-model for the 
region.
    At the other end of the spectrum we have Kosovo, which still 
remains an international protectorate, and which erupted into 
widespread and serious inter-ethnic violence on March 17th.
    Twenty people were killed, hundreds were injured, thousands were 
displaced, and hundreds of homes and more than thirty churches were 
destroyed.
    In response to the violence in March, KFOR intervened effectively 
in a few places, the most notable example being American troops in 
stopping several busloads of armed hoods from attacking the monastery 
town of Gracanica, south of Pristina.
    But in other areas European KFOR troops stood aside while rioters 
burned down churches and homes.
    The violence was ugly. It was inexcusable. It was avoidable. And it 
must never reoccur. Unfortunately, it is difficult to be confident that 
it will not.
    The United Nations Mission in Kosovo, UNMIK, now has a new head and 
is attempt!ng to streamline the overly ambitious benchmarks it had 
previously set as a precondition for discussion of the final status of 
the province.
    But Progress remains slow and mutual distrust remains intense.
    The neighboring Former Yugoslav Republic of Macedonia suffered a 
terrible loss last winter when its highly respected President, Boris 
Trajkovski, was killed in a plane crash.
    The new President and the current Prime Minister--who heads a 
coalition of ethnic Macedonian Slav and ethnic Albanian parties--are 
trying to implement the agreement that ended a civil war in 2001. 
Decentralization and reform of local government is the key, and success 
will be difficult.
    Elsewhere, the picture is somewhat more hopeful. Croatia is making 
steady progress toward accession to the European Union. As part of 
this, Zagreb has been cooperating with the International Criminal 
Tribunal for the Former Yugoslavia, as evidenced by its decision to 
send a former Croatian general to The Hague to face war crimes charges 
against Serb civilians.
    That's encouraging. But Croatia still has work to do by 
apprehending and extraditing another prominent war crimes indictee, 
General Ante Gotovina.
    A similar situation exists in Serbia and Montenegro, where failure 
to cooperate with The Hague continues to stifle progress toward 
membership in NATO's Partnership for Peace, and eventually in NATO 
itself and in the EU. Efforts to send former Bosnian Serb General Ratko 
Mladic to face war crime charges have been thwarted consistently, and 
four indicted Serbian generals remain free.
    Despite this ongoing lack of cooperation, there have been 
significant signs of progress. On June 27th the Serbian people elected 
Boris Tadic, former Defense Minister and a committed democratic 
reformer, as their President.
    I met with Mr. Tadic at the end of April here in Washington. He is 
a most impressive man--just the kind of democrat Serbia needs.
    I congratulate Mr. Tadic on his election and urge him to use the 
prestige of his new office to continue reform efforts in order to bring 
Serbia into European and transatlantic institutions.
    A word is in order on the other part of the Union of Serbia and 
Montenegro. This ``marriage'' was largely forced upon Montenegro by the 
European Union, with the Bush administration opting out of the process.
    Whatever the ostensible rationale was for the creation of the 
union, it does not seem to have worked. Late last month Serbia's most 
respected economist said publicly that the economies of the two 
countries have been unable to merge.
    Montenegrin Prime Minister Djukanovic--another Balkan leader with 
whom I have met several times--is an ardent champion of independence 
for his country. The electorate is divided on the issue, with the most 
likely result of a referendum a slim majority for independence.
    I will be interested in the opinions of our distinguished witnesses 
on this and other delicate issues.
    The bloodiest of the Wars of the Yugoslav Succession in the 1990's 
occurred in Bosnia and Herzegovina.
    I met in June with Bosnian Prime Minister Terzic, to congratulate 
him on his country's painful but significant progress toward stability. 
But, as in Serbia, that progress and integration into Western 
institutions will be incomplete as long as Radovan Karadzic remains 
free in the Republika Srpska.
    I have no doubt of the complexity and delicacy of locating and 
arresting persons indicted for war crimes.
    But it will be absolutely impossible for Bosnia and Herzegovina to 
move forward until Karadzic is in The Hague.
    My own advice to the administration on this matter is simply not to 
even consider any compromise. Both of these gentlemen must be 
apprehended, without conditions, and sent to The Hague.
    I will conclude with two general observations.
    First, in order for us to take the battle to the terrorists in 
Central Asia and the Middle East, we must have a stable Europe. In 
other words, the stability of Europe is essential for the security of 
the United States.
    However, even as NATO and the European Union have expanded to an 
extent that a few short years ago we thought inconceivable, it is clear 
that Europe will not be fully stable until its southeastern corner is 
stable. The riots in Kosovo in March prove that violence remains a 
reality in some areas, and a real threat in others.
    Last, let me point out that the United States--because of our 
leadership in the Bosnian air campaign of 1995, in the Dayton Peace 
Accords after the fighting stopped, in the campaign to stop ethnic 
cleansing in Kosovo in 1999, and the resulting credibility that we have 
with all ethnic groups in the region--remains the critical player in 
the area of the former Yugoslavia.
    Since SFOR will end its mission this December, and be succeeded by 
a European Union force, we must ensure a continuing role for the United 
States--not because we want or need to call the shots there or 
elsewhere--but because in our absence, we run the risk of destabilizing 
a fragile piece of strategically important real estate.
    Despite the enormous strains on our military, given our commitments 
in Iraq, Afghanistan, and elsewhere we must remain present in the 
Balkans in order to maintain the course toward peace, inter-ethnic 
stability, and democracy.
    Thank you again, Mr. Chairman. I look forward to hearing from our 
distinguished witnesses.

    Senator Biden. If some of these questions have been asked 
already, I will obviously be briefed by staff who is here and/
or read them in the record. A couple of questions.
    How would either of you, or both of you, evaluate the 
decentralization proposal for Kosovo put forward by Belgrade 
back in April? Is this a serious plan for reform or is this a 
Trojan Horse for partition of the province? How do you read it?
    Ms. Stephens. Thank you, Senator.
    I think that one conclusion that just about everyone 
reached after the March violence was that we needed to look 
much more closely and in a more urgent way at the issue of--
pick your word--effective local government, decentralization, 
bringing government closer to the people, doing things that 
would help to ensure the safety and security of all citizens in 
Kosovo and notably those who had been most affected by the 
recent violence. I think it was in that context that the 
government in Belgrade introduced a proposal, passed it through 
their parliament, and put it on the table. In terms of starting 
a dialog, I think that is a good first step.
    I would note that in Pristina, quite encouragingly, this 
issue, local government, decentralization, is also very much on 
the agenda. There is a working group in Pristina which I 
understand may be coming out with its own proposals in the 
course of the next several weeks. I think like any negotiation, 
getting some ideas out there is probably the first step and 
getting the debate started. I think we have seen some healthy 
moves in that direction.
    I would also note that actually this morning at the 
residence of our chief of mission in Pristina a meeting she 
hosted brought together leaders from the provisional 
government, from the ethnic Albanian side as well as Kosovo 
Serb leaders, to talk about a number of things, mostly returns, 
but I think there is a dialog there which will also contribute 
to the decentralization debate.
    So to round back to answer your question, Senator, more 
directly, I would say that the plan as presented by Belgrade is 
certainly something that should be out there on the table and 
should become part of a discussion which we hope will lead very 
quickly and very concretely to some steps on the ground that 
can provide greater security and greater local governance to 
communities in Kosovo, all communities.
    Senator Biden. Is the notion of significant autonomy or 
even independence still a non-starter for our European friends? 
How would you characterize NATO European attitudes toward the 
status of Kosovo?
    Ms. Stephens. I think one of the positive things, Senator, 
about our work in the international community over the last 
year or so on Kosovo is that we have reached a common view that 
the way forward is on standards, and that when we have a Kosovo 
that has addressed the priority standards, which again the 
March violence reminded us and as started on the sort of 
chapeaux of the standards program put out by the United 
Nations, a Kosovo where all can live freely without fear, 
hostility, or danger, that until we meet that standard, talking 
about what the status will be really does not get us very far.
    Senator Biden. But is that not kind of circular? A lot of 
folks in Kosovo say the only way that standards can be met is 
if they are independent, by definition, and what happened is 
evidence of that. How do we respond to that? What is the answer 
to that?
    Ms. Stephens. Senator, my answer would be and the answer of 
those of us who have worked together within the Contact Group 
in pushing forward this notion of standards is that one thing 
we do know about Kosovo's future status is that it is and will 
continue to be a part of Europe. It needs to be fully a part of 
Europe and it cannot be until some basic provisions and 
protections are in place. So I would say we are not persuaded 
by the argument that once you settle the status question, 
everything else falls into place. It would seem to me that when 
we established a time table to look at this process with a 
review date in mind, it was to create this sense of a way 
forward, of a clear vision, of how to move toward status, and 
that that addresses that question of uncertainty, if you like.
    Senator Biden. I am not taking issue with it. I just want 
to know how you are thinking of it.
    Mr. Chairman, have we discussed the thing you and I have 
discussed, the uneven response of KFOR forces?
    Senator Voinovich. Yes, we talked about that.
    Senator Biden. I will leave that alone.
    And have we discussed the newly inaugurated President's 
position of cooperating with The Hague tribunal and Kostunica's 
continued insistence that it is anti-Serb--has that been 
discussed?
    Senator Voinovich. It was mentioned in the testimony, but I 
think it would be good to get a response. I know that Ms. 
Stephens was with Marc Grossman, and I would be interested to 
know what your observations were. I agree with you in terms of 
Tadic and Kostunica. Do they get it yet?
    Senator Biden. Well, at least Tadic is verbally saying he 
gets it. Kostunica, I do not see any evidence he has gotten it.
    I would like you to discuss it any way you would like. It 
would be helpful to me and to us. The underlying interest I 
have, as a consequence of this or maybe other reasons, is 
Kostunica likely to try to form a new coalition? Talk to us 
about that a little bit.
    Ms. Stephens. Thank you, sir.
    First of all, on the question of do they get it, I think 
the shorter answer is, in my view having been there a number of 
times over the last 6 months, yes, sir, I think they do in a 
very keen way. That was certainly my conclusion and I think 
Under Secretary Grossman's conclusions from our meetings there 
last week.
    As I did mention in my opening comments, I was reading 
President Tadic's inaugural speech from last Sunday, and what 
he had to say about cooperation with the tribunal was this: 
``It's a priority of our foreign policy since it is the 
essential precondition of all European and Euro-Atlantic 
integration and since it confirms our commitment to European 
values.'' So the words are right. We do look for action, and 
for action, we do look to President Tadic to work closely with 
Prime Minister Kostunica and his coalition for that action.
    Senator Biden. If I can interrupt you, do you read anything 
into Tadic's election and the response of the Serbian people in 
electing him in terms of their willingness and understanding 
and support for or lack of hostility toward the tribunal? Marc 
and you as well, but I know Marc well, he is a very 
sophisticated, savvy guy, one of the best people I think we 
have in the State Department. My initial reaction, to reveal my 
unsubstantiated conclusion here, is that I took some heart from 
the election, in light of the competing parties, that this is 
not as much of a political risk for a new leader as the 
undercurrent suggests, everyone I have seen said do not make us 
do this, we do not have a consensus to do this. So factor that 
in as well for me, and I will not ask any more questions.
    Ms. Stephens. Yes, Senator, I would agree with that 
analysis. I think that the message that the Serbian people sent 
in electing Boris Tadic as their President was a very strong 
and important one. Boris Tadic ran on a platform of cooperation 
with ICTY, of cooperation and moving toward Euro-Atlantic 
institutions, and moreover he had a track record. He had been 
Defense Minister, and there are a lot of things that were very 
controversial in terms of defense reforms. So the Serbian 
people knew what they were voting for. They are smart people. 
So I think that is a very important and powerful sign.
    And I think it is also important that it is in the context 
of Serbia being a country which does have an experience with 
taking very bold steps to transfer people with the greatest 
responsibility for what happened in the region over the last 
decade, notably of course Slobodan Milosevic. And they can do 
it again. They can finish the job, and that has been our 
message to them. What we have heard also from Prime Minister 
Kostunica is that he understands it. As you suggested, with the 
election behind them, with this kind of mandate, the time seems 
to be now to do it.
    Senator Biden. Well, I want to compliment the President and 
compliment you and compliment Marc for holding fast on this 
position, because I know there were other voices counseling, as 
there are in every administration, differing views. So I want 
to publicly compliment the President. I think it is critically 
important that it is a non-starter.
    Again, I thank you both. I have many more questions, and 
with your permission, I will submit several. I will not 
overburden you, but I will submit about four questions in 
writing, if I may, Mr. Chairman. And I thank you both.
    Senator Voinovich. The impression that I have is that 
Kostunica and Tadic understand how important it is for them to 
work together to create some stability in Serbia and Montenegro 
because that has been one of the real disadvantages they have 
had in terms of investment from other countries and so on. 
Again, I agree with you. I think that the people in the country 
knew what they were voting for, and I think they realized they 
have got to get on with sending those people to The Hague.
    You may or may not be familiar with this, but I have been 
very, very critical of UNMIK in Kosovo and, after the March 17 
incidents, asked for the resignation of Holkeri. I had spent 
time with his predecessor and he talked about setting up the 
benchmark goals and the standards and so on, but it took 2 
years to really put standards with the benchmark goals that are 
to achieve 1244.
    The question I have is how much more aggressive do you 
believe that Soren Jessen-Petersen is going to be? Does he get 
it? Does he understand that this is a significant job for him? 
And what are you going to do in the State Department to 
underscore how important you think it is to the future of the 
Balkans?
    Ms. Stephens. Yes, thank you, Mr. Chairman.
    Our sense has been as well that while we think we have 
gotten the policy about right with this emphasis on standards, 
on moving forward in an aggressive way and creating the kind of 
Kosovo that will be a stable, sustainable part of Europe, the 
execution has left something to be desired. I am sure there are 
many fingers that could be pointed. But I think particularly in 
the aftermath of the March violence, we wanted to look in a 
very intense and fresh way at what we could do and what we 
needed to do both as the United States and as part of the 
international community and the U.N. to make this policy work 
and to get the execution right.
    As you have already mentioned, we resolved to have meetings 
every 6 weeks in Pristina, to meet with UNMIK on the ground 
there as the Contact Group, on the margins of that meeting and 
in between to try to facilitate a dialog between and among 
parties in Pristina and Belgrade on immediate security and 
confidence building measures and looking forward to a 
decentralization discussion and also, very importantly, to 
engage the U.N. mission in Kosovo in a more energetic way in 
terms of our priorities, both ours as the United States and, 
again speaking with the voice of the Contact Group, on what the 
priority standards are and how we need to accomplish them.
    We do think that appointment of Mr. Jessen-Petersen, very 
experienced in the region, very experienced in the United 
Nations, is a positive appointment. We do look forward to 
working with him. Marc Grossman has talked to him and visited 
with him on a number of occasions. I have met with him in 
Skopje where he now is and where we hope that he will be 
concluding a successful decentralization agreement or 
participating in that as the EU representative in Skopje now, 
and we think he comes to Kosovo with, again, the experience of 
Macedonia very fresh in his mind and very much, in terms of our 
dialog and that of our allies with him, getting it in terms of 
the priority we attach to the huge task that lies before us in 
the coming year.
    Senator Voinovich. In addition to your visits, I think it 
is really important that we have somebody there representing 
us. We have had some people there that have been very good and 
some maybe not as good, and I really think it is important that 
whoever we send there really understands how important it is to 
make sure things are watched to see how they are progressing.
    Ms. Stephens. Thank you, Mr. Chairman. I appreciate that.
    The position of senior deputy to the Secretary General's 
Special Representative has traditionally been an American job, 
and we have proposed to the U.N. and to Mr. Jessen-Petersen 
someone we think is highly qualified and highly energetic and 
ready to take on that task. We would certainly agree with you 
that that is part of a new team in Kosovo to move forward 
aggressively.
    Senator Voinovich. My last question is twofold but it is 
still the same question, do they get it? Do Mr. Rugova and Mr. 
Rexhepi? Now, I did meet with President Rugova when he was here 
a couple weeks ago, and he said the same thing to me. Let us 
take over. And I said, after what happened in March, you have 
got to be kidding me. I have spent time with you and I said, if 
people can have freedom of movement and they have the same 
rights as other people in the country, then the ultimate issue 
of status will be all worked out. But as long as people are 
fearful of the fact that they cannot move and their homes are 
burned down and so forth, it is going to be very difficult for 
you to gain any kind of a different status.
    The question is, do you think they understand that, No. 1. 
And No. 2, one of the best indications of their understanding 
it is how quickly have they moved to repair and rebuild 900 
homes, deal with the 4,000 refugees, and what is being done 
about the 30 monasteries and churches that have been burned 
down.
    Ms. Stephens. Yes, Mr. Chairman. Thank you.
    I believe they are getting it and we are repeating the 
message again and again. Every 6 weeks when we go to Pristina 
as part of the Contact Group, we start with two questions. What 
has happened in the last 6 weeks on reconstruction, on returns, 
on the arrest and prosecution of those responsible for the 
violence? And what are you going to do over the next 6 weeks? 
So we have tried to focus people on action. Certainly the 
rhetoric has changed in a positive way.
    I mentioned earlier there happened to be this meeting this 
morning, which I think was an important meeting, at the 
residence of our Chief of Mission in Pristina. Out of it came a 
statement, which I have just seen, called a joint declaration, 
which was signed by President Rugova, Prime Minister Rexhepi, 
others from the PISG leadership, as well as three members of 
the Kosovo Serb coalition, which highlighted mostly the return 
issue. This is a positive sign. Again, it needs to be followed 
by action, but it is a positive sign that there is a dialog 
going on about specifically accomplishing something.
    And I think they have certainly gotten the message that 
with the standards, that we do expect to measure and evaluate 
in an objective way with our continued engagement. There has to 
be an answer that is more than rhetoric. It has to be how many 
returns there have been and what has been rebuilt.
    In terms of what has been rebuilt, Mr. Chairman, very 
briefly, of about 930 homes that were partially or completely 
destroyed in the March violence, our understanding is that with 
funding from the provisional authorities in Pristina, roughly a 
quarter of them have been rebuilt to the point where they can 
be reoccupied, and about another quarter are under 
reconstruction. That still leaves quite a few that need work.
    Prime Minister Rexhepi, who I think has taken a very 
leading and positive role in the aftermath of the violence in 
getting out, engaging with the community, acting like a leader, 
has made it very clear that he is committed to seeing the 
construction finished on these damaged and destroyed homes by 
the autumn, and in addition to working with the Serbian 
Orthodox Church, with UNESCO, with the Council of Europe to 
restore and repair the approximately 30 damaged churches that 
suffered in the March violence, as well as some schools which 
need to reopen for September. And we will hold them to that. We 
will be there next week to say what has been done and we will 
be there again in the summer for another update, and we would 
be happy to provide it to you.
    Senator Voinovich. Thanks very much. I too have some 
additional questions, but you have been very generous with your 
time.
    Senator Biden. Can I make one brief comment?
    Senator Voinovich. Certainly.
    Senator Biden. I have an op-ed piece I have just written 
and am about to submit. I just want to lay out for you in a 
second the thesis of it.
    I really think that there is reason for hope at this 
moment, particularly coming out of Belgrade I think at this 
moment. I should not say ``particularly.'' Coming out of 
Belgrade. I think Vuk Draskovic, a flamboyant anti-Milosevic 
person we both know who has been here many times--I think that 
the constellation of players--and I cannot think of a time when 
in Kosovo U.S. credibility has been higher than it is right now 
because of the way we reacted. You are welcome to respond. I am 
not seeking a response. I hope that in the turnover to the EU, 
we understand that we should not, in effect, be also turning 
over our leadership role in being able, I think, to facilitate 
negotiations now from a stronger hand than we had at any time I 
think in the recent past.
    So I hope you will convey at least to Marc and to the 
Department, the administration that I for one think this is an 
opportunity for us to reengage in a more intense way. Again 
because of our actions, I think we have a standing and a 
credibility. We demonstrate we mean what we say. So I just want 
to communicate that for your gratification.
    Ms. Stephens. Thank you, Senator. I will take that back. I 
appreciate it.
    Senator Voinovich. Thank you very much for coming.
    Our next panel is Jim Dobbins, director of International 
Security and Defense Policy Center at RAND; Jim O'Brien, 
principal of the Albright Group LLC; Mr. Ivan Vejvoda, 
executive director, Balkan Trust for Democracy, German Marshall 
Fund; and Mr. Veton Surroi, who is the publisher of Koha 
Ditore, Pristina, Kosovo.
    Thank you very much for being here. It has been suggested 
that if you could summarize your testimony in 5 to 8 minutes, 
it would be appreciated. We will begin the testimony with 
Ambassador Dobbins. Welcome.

   STATEMENT OF HON. JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
            SECURITY AND DEFENSE POLICY CENTER, RAND

    Ambassador Dobbins. Well, thank you very much, Senator.
    Senator, the U.S. policy in the Balkans has been blessed 
with continuity, solidarity, and bipartisanship, blessings that 
should be extended to our policy toward other regions. Having 
participated in setting some of these policies in the last 
administration and also having participated in this 
administration's early decisions to carry on with those 
policies, I obviously support them in large measure, and I am 
not, therefore, going to try to deal with every question that 
the committee has posed to us but simply point out one issue on 
which I do have a different view and a couple of others which 
are really no more than footnotes on existing policies or 
quibbles or caveats rather than a real difference.
    The issue where I would advocate a change does have to do 
with Kosovo and the issue of Kosovo's final status. In the 
aftermath of the recent ethnic violence, many have asked why, 
after nearly 5 years of peace, reconciliation between the two 
major ethnic communities has not advanced further. I believe 
the answer is fairly simple. They do not know to what future 
they should become reconciled. Serbs and Albanians in Kosovo 
are unlikely to reconcile with each other until they share a 
common expectation regarding Kosovo's future. Not a common 
goal, not a common desire. That is too much to ask at this 
stage. But a common expectation around which to organize their 
relations with each other.
    This, incidentally, is not just my view. It is a view 
according to today's Washington Post which was recently put 
forward by the human rights ombudsman for Kosovo who argued 
that it is precisely uncertainty about Kosovo's final status 
which is exacerbating ethnic tensions in Kosovo.
    Now, back in 1999 when the Kosovo air war came to an end, I 
think it made sense to defer Kosovo's final status, but we did 
not do this because we thought it was good for Kosovo. We did 
it because we thought it was good for the region as a whole. We 
knew--I think most of us knew--that postponing a decision on 
Kosovo's final status would create a situation in which the 
Serbs could still harbor hopes of once again becoming the 
majority and the Albanians would once again harbor fears of 
becoming the minority, and that this would be a seed of 
discontent between the two of them.
    But we also knew that with 50,000 American and NATO troops 
going to Kosovo and 5,000 U.N. police and a population 
overwhelmingly grateful to NATO and the United States for 
having liberated them, that we had a breathing period in Kosovo 
that we could afford to turn to other problems, that we could 
afford to worry about the precedential impacts of Kosovo's 
independence on Macedonia, on Montenegro, and on Bosnia, and 
its impact on public opinion in Serbia. Therefore, we decided 
to postpone Kosovo in order to buy some breathing space to deal 
with these other problems.
    Well, it is 5 years on. Those other problems have not been 
solved, but they have been improved. They are all better than 
they were 5 years ago, and Kosovo is still simmering and 
occasionally boiling over. When it does boil over, the first 
reaction is to say this is no time to turn down the heat, that 
would reward extremists, the heat being the uncertainty about 
its future.
    So I would suggest that it is time to turn to Kosovo, that 
it is Kosovo's turn to become the priority issue in the Balkans 
for the international community to review and resolve. I would 
say, however, that if prolonging Kosovo's uncertainty unsettles 
that society, opening a prolonged international negotiation on 
its future could be even more destabilizing, potentially 
provoking just the sort of ethnic violence that the 
international community is seeking to avoid.
    Now, the present bargain, the standards before status 
bargain, that has been offered to the Kosovars is basically 
that they should meet international standards and then the 
international community would allow them to open negotiations 
with Belgrade over their future status. In other words, if the 
Kosovars behave, they get an invitation back to Ramboullet. 
Needless to say, this incentive has failed to produce much in 
the way of performance.
    I would propose retaining the sequence between standards 
and status--that is, standards first and then status--but I 
would propose defining both the standards we want and the 
status we are prepared to support. With status so defined, the 
leadership of Kosovo's majority community would have a greatly 
enhanced incentive to meet the standards.
    This effect would be achieved, in my judgment, were the 
United States and the European Union to jointly announce their 
willingness to support independence for Kosovo within its 
current borders, provided that Kosovo's leaders demonstrate 
their capacity to build a society in which all of Kosovo's 
people can live in peace and dignity. The U.S. and EU might 
further specify their intention to submit a resolution to the 
U.N. Security Council 2 years hence establishing independence 
for Kosovo, provided a reasonable set of standards had been met 
in the interim.
    So that is my suggestion of how we should deal with the 
issue of Kosovo, and I will leave further comments on it to the 
question period. Perhaps some of my colleagues here will 
comment as well.
    Let me just very briefly make the other two points on which 
I am not so much differing with policy as putting a gloss on 
it. One is troop withdrawals from Bosnia.
    During his first meeting with the NATO Council, Secretary 
of State Powell pledged to our European allies that we all went 
into the Balkans together and we will all come out together. 
Next year we will come out of Bosnia and they will stay.
    Now, consistency is not everything, and I think there are 
actually some offsetting advantages to the deal that has been 
worked out between NATO and the EU for the EU to take over this 
operation, the advantages being, first of all, it does free up 
a small number of U.S. troops for other higher priority 
missions, including in particular Iraq. Second, it allows the 
EU to try out its new peacekeeping competency on well-trodden 
ground. And third, it allows NATO and the EU to try out the 
mechanisms which have been negotiated with so much difficulty 
between them whereby NATO can provide command and planning 
assets to the EU for these kinds of operations.
    On the other hand, the number of U.S. troops being freed up 
in Bosnia is small, very small, and therefore the benefit is 
more symbolic than practical. And I am not sure that the 
symbolic benefit is entirely one way. It is perfectly 
reasonable for the United States to argue that Bosnia should be 
Europe's business, but this stance makes it all too easy for 
others to argue that Afghanistan or Iraq should be the American 
business, and that is not the kind of model we want to set. 
That is not the kind of burden-sharing arrangement that works 
to our advantage. Bosnia and Kosovo were both outstanding 
models of international burden-sharing, with the United States 
providing only 22 percent of the money and manpower in Bosnia 
and only 16 percent in Kosovo. We are going to be down to 0 in 
Bosnia next year and we are already down to 10 percent in 
Kosovo.
    Now, I think that there is a missed opportunity for 
solidarity here which would strengthen the case for solidarity 
in places like Afghanistan and Iraq where there is all too 
little of it. So a footnote, rather than a fundamental problem.
    Now, there is one difficulty with the withdrawal of NATO 
from Bosnia in my view, and that is that it is not a clean 
break, that the handover is not complete. NATO is to retain a 
vestigial headquarters in Bosnia in order to hunt for war 
criminals and terrorists. This arrangement replicates exactly 
the division of labor the Clinton administration adopted in 
Mogadishu in 1993, under which the U.N. was to do the 
peacekeeping, while the United States operating unilaterally 
was to hunt down outlaws. The result was a debacle brought 
about when outnumbered American rangers hunting General Aideed 
had to be rescued by U.N. armored forces that had been given no 
notice of the U.S. operation and no opportunity to prepare for 
its extraction.
    I think these kinds of dual headquarters and divided 
commands are always a prescription for difficulty. We have set 
the same problem up in Afghanistan already. Happily we are 
operating in different, noncontiguous geographic zones in 
Afghanistan. So NATO has one area; the U.S. has another. But in 
Bosnia, NATO and the EU are going to be operating in exactly 
the same geographic space.
    I have to say I have been studying the lessons of nation-
building over the last decade, and the primary lesson to be 
drawn from the examples of the last decade is we never learn 
our lessons. And I am afraid this is one that we did not learn.
    My last concern--and I will not belabor it--was simply to 
make a comment on the balance between justice and 
reconciliation in the Balkans and the role of The Hague 
tribunal.
    We are 10 years into this process. It is too late for 
second thoughts. We need to persevere in this agenda and the 
countries of the region need to fulfill their obligations. It 
is good news that Serbia has elected a President who is 
prepared to do so.
    I do have doubts as to whether this arrangement makes a 
particularly good model for the future, however. I think that 
issues of what is called transitional justice in post-conflict 
society--those decisions need to be made in the context of an 
overall plan to deal with ending the conflict and establishing 
an enduring peace, not in isolation or in absence of an overall 
plan which was the case when the ICTY was established. I would 
note that in cases where the United States or the United 
Nations have put troops on the ground, have intervened to stop 
an ongoing genocide or other such conflict, that a more normal 
approach to issues of justice and reconciliation puts a much 
greater weight on participation by local actors in the process 
than we have done in the Balkans.
    Thank you.
    [The prepared statement of Ambassador Dobbins follows:]

              Prepared Statement of Hon. James Dobbins \1\
---------------------------------------------------------------------------

    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
    I appreciate the Committee's invitation to testify on a set of 
issues that has been overshadowed of late by more dramatic and alarming 
developments elsewhere in the world. Even as we cope with new 
challenges, however, it is important to preserve the gains made over 
the past decade in bringing peace and democracy to the Balkans.
    American policy toward this region has been marked by a high degree 
of continuity. Having helped shape the policies in the last 
Administration, and helped persuade the current Administration to take 
these up, I naturally remain supportive of the main lines of 
Administration policy in the region. Rather than review each of the 
questions the Committee staff has posed to the panel for this hearing, 
therefore, I will confine myself to comment on three issues, first, the 
process for determining the final status of Kosovo, second, the 
withdrawal of American troops from Bosnia, and third, the balance to be 
struck between the pursuit of justice and reconciliation in the region.

                         FINAL STATUS OF KOSOVO

    In the aftermath of recent ethnic violence in Kosovo, many have 
asked why, after nearly five years of peace, reconciliation between the 
two major ethnic communities has not advanced further. I believe the 
answer is fairly simple. They do not know to what future they should 
become reconciled. Serbs and Albanians in Kosovo are unlikely to 
reconcile with each other until they share a common expectation 
regarding Kosovo's future--not a common goal or a common desire, that 
is too much to ask--but a common expectation around which to organize 
their relations with each other.
    In 1999, as the Kosovo air war came to an end, the United States 
agreed to defer any decision regarding Kosovo's final status. Those of 
us who participated in these policy considerations came to this 
conclusion not because we thought such a postponement good for Kosovo, 
but because we thought it good for the region. We understood well 
enough that prolonged uncertainty regarding Kosovo's final status was 
likely to exacerbate ethnic tensions there, making Serb residents less 
likely to accommodate themselves to their new minority status and 
Albanian residents more likely to regard remaining Serbs as potential 
instruments of revanchist Serb aspirations. And so it has proved.
    Recognizing these drawbacks, the United States nevertheless joined 
with the rest of the international community to put a decision on 
Kosovo's status on hold. It did so out of concern for the stability of 
the region as a whole, recognizing that a decision to support 
independence for Kosovo could make it more difficult to hold Macedonia, 
Bosnia and what was left of Yugoslavia together.
    It is now five years on. This trade off between Kosovo and the 
surrounding region made sense five years ago. It makes less today. 
Macedonia, Montenegro, Serbia and Macedonia have all had half a decade 
to adjust to the realities of life after Yugoslavia, to develop closer 
ties with the European Union and NATO, to overcome internal divisions 
and settle external disputes.
    In the meantime the Kosovo pot has continued to simmer, and, 
occasionally, to boil over, the heat source being uncertainty over its 
future. When it does boil over, as happened recently, the international 
reaction is that this is no time to turn down the heat, for to do so 
would reward the extremists.
    Five years ago, with forty five thousand NATO troops and forty five 
hundred UN police on their way to Kosovo, and with the great majority 
of that population immensely grateful to the United States and NATO for 
their liberation, it made sense to give priority to the potentially 
more volatile situations in Macedonia, Bosnia, Montenegro and Serbia. 
Today, by contrast, the most volatile society in the Balkans is 
probably Kosovo, while NATO and the UN have less than half the soldiers 
and police available to keep the lid on than they did a few years ago.
    If prolonging Kosovo's uncertainly unsettles that society, however, 
opening a prolonged international negotiation on its future could be 
even more destabilizing, potentially provoking just the sort of ethnic 
violence the international community is seeking to avoid.
    The present bargain on offer to the Kosovars is that first they 
should meet international standards and then the international 
community should allow them to open negotiations with Belgrade over 
their future status. In other words, if the Kosovars behave, they get 
an invitation back to Ramboullet. Needless to say, this incentive has 
failed to produce much in the way of performance.
    I would propose retaining the sequence of standards before status, 
but defining both the standards we want, and the status we are prepared 
to support. With status so defined, the leadership of Kosovo's majority 
community would have a greatly enhanced incentive to meet the 
standards.
    This effect might be achieved were the United States and the 
European Union to jointly announce their willingness to support 
independence for Kosovo within it current borders provided that 
Kosovo's political leaders demonstrate their capacity to build a 
society in which all Kosovo's people can live in peace and dignity. The 
U.S. and EU might further specify their intention to submit a 
resolution to the UN Security Council two years hence establishing 
independence for Kosovo providing a reasonable set of standards were 
met in the interim.
    Obviously, there are many permutations such an initiative might 
take. The essential elements, it seems to me, is that we identify both 
the status and the standards with the same degree of specificity, and 
that we set a realistic deadline and achievable set of goals.
    I think it unlikely that Russia can be brought to support such an 
initiative. Neither is Russia likely, in the end, to block such an 
outcome. Neither do I think Belgrade likely to embrace such a formula. 
Nor would we be doing democratic leaders there any favor by pressing 
them to do so. Unfortunately, agreement between Belgrade and Prestina 
over Kosovo's future status seems as distant today as it was five years 
ago. Our choice, therefore, is between reinforcing the international 
troop and police presence and keeping the lid on for another half 
decade, or moving forward now with the fairest and least destabilizing 
solution we can devise.

                     TROOP WITHDRAWALS FROM BOSNIA

    During his first meeting with the NATO Council Secretary of State 
Powell pledged to our European allies that ``we all went into Bosnia 
together, and we will all come out together.'' Next year we will come 
out and they will stay.
    The agreement between the European Union and NATO that the former 
should take over the latter's peacekeeping duties in Bosnia next year 
has, nevertheless, a number of advantages. This arrangement frees up 
American forces for use in Iraq or Afghanistan. It allows the European 
Union to embark upon its first major peacekeeping operation on familiar 
terrain. It offers an opportunity to employ and test the arrangements 
for the EU's use of NATO planning and command structures so laboriously 
worked out over the last several years.
    On the other hand, the number of American troops being freed up in 
Bosnia is comparatively small--a few hundred. Given its competing 
commitments, it is perfectly reasonable for the United States to argue 
that Bosnia should be Europe's business. But this stance makes it all 
too easy for others to argue that Afghanistan or Iraq should be ours.
    Bosnia and Kosovo were, in their time, outstanding examples of 
international burden sharing, with the United States providing 22% of 
the peacekeeping manpower for the former and 16% for the latter. Next 
year the U.S. will be down to zero in Bosnia, and it is already down to 
10% in Kosovo. By contrast the United States is providing three fourths 
of the manpower for Afghanistan, and almost nine-tenths for Iraq. There 
are many reasons for these disparities, but American reluctance to 
accept the constraints of multilateral operations is one.
    After some hesitation, the Administration has embraced both 
peacekeeping and multilateralism. It has pledged more resources for the 
former, and proposed new tasks for the latter. This is to be welcomed. 
There remains, however, a reluctance to engage U.S. forces in the 
former, or subject U.S. freedom of action to the latter. In 
Afghanistan, the United States continues to decline any peacekeeping 
role for its forces and maintains a strict separation between the 
International Security Assistance Force, now under NATO, and Operation 
Enduring Freedom, still under sole U.S. command. Peacekeeping is now 
acknowledged as an important task, and multilateral institutions have 
important roles, but the United States would rather remain uncommitted 
to the former and unconstrained by the latter. Unfortunately, so would 
many others.
    Despite these reservations, the change of command in Bosnia makes 
sense. The break is not to be a clean one, however, and the handover is 
not to be complete. NATO is to retain a vestigial headquarters in 
Bosnia in order to hunt for war criminals. This arrangement replicates 
almost precisely the division of labor the Clinton Administration 
adopted in Mogadishu in 1993, under which the UN was to do the 
peacekeeping while the United States, operating uniliterally, was to 
hunt down outlaws. The result was a debacle brought about when 
outnumbered American Rangers hunting General Aideed had to be rescued 
by UN armored forces that had been given no notice of the U.S. 
operation and no opportunity to prepare for its extraction.
    In Afghanistan, where we also have divided command, between the 
United States and NATO, the respective forces are at least separated 
geographically, reducing the danger of fratricide and miscommunication. 
In Bosnia, however, NATO forces hunting war criminals will be operating 
on exactly the same terrain as EU troops conducting peacekeeping. And 
since the only reason to keep NATO engaged is to make it possible for 
American forces to conduct these tasks, one must assume that the NATO 
forces so engaged will often be American.
    Given that Britain will provide the command and the core of the 
European Union force in Bosnia, and given the British forces have been 
quite assiduous and successful in capturing war criminals in Bosnia, it 
is not clear why responsibility for this function could not have been 
transferred to the EU with all the others.

                       JUSTICE AND RECONCILIATION

    Almost a decade after the end of fighting in Bosnia the pursuit of 
war criminals occupies a central place in Western policies toward both 
Bosnia and Serbia. In Bosnia, the High Representative has just relieved 
sixty officials of their positions because of their failure to 
cooperate in the apprehension of Karadjic and Mladic. Serbia's equal 
failure to apprehend and render up these two fugitives has become a 
serious obstacle to its closer relations with the United States, NATO 
and the European Union.
    The apprehension of these two fugitives should advance the cause of 
democracy in Bosnia and Serbia. Unfortunately, we have before us the 
rather dispiriting examples of Milosevic and Saddam Hussein. The 
overthrow of those two dictators certainly represented a massive 
advance for democracy in their respective countries. Their subsequent 
capture and incarceration, however, has not yet produced the further 
beneficial impacts that we all hoped for. Saddam's capture does not yet 
seem to have reduced resistance in Iraq. Milosivic's incarceration and 
trial does not yet seem to have diminished support for radical Serb 
nationalism.
    I raise this issue not because I have a ready formula for achieving 
the right balance between justice of reconciliation in post conflict 
societies, but because, having given considerable thought to the 
subject, I do not.
    A recent RAND study of America's nation building experience over 
the last sixty years concluded that the Nuremberg trails and the 
extensive denazification proceedings in post-WWII Germany contributed 
positively to that countries political transformation. The same study 
also concluded that the much milder process imposed on Japan by General 
Macarthur allowed that countries democratic transformation to go 
foreword more rapidly and more smoothly, if perhaps less thoroughly, 
than Germany's.
    Policy, like life, is all about choices--thorough or quick, justice 
or reconciliation, retribution or forgiveness. My own study of 
societies emerging from conflict leads me to conclude that arrangements 
for what has come to be called transitional justice, that is to say 
accountability for past abuses, are best made in the context of a 
comprehensive approach to stabilization and reconstruction.
    Unfortunately, the design for the International Criminal Tribunal 
for Yugoslavia (ICTY), like that for the Rwanda Tribunal to which it is 
linked, was not established as one element in an otherwise effective 
international effort to deal with the genocide in Bosnia. Rather, in 
both cases tribunals were established, initially at least, as 
substitutes for effective action to stem the genocide. In both cases 
the international community had stood aside while genocide gathered 
pace, and then established international tribunals, in part at least, 
as a sop to its consciences for having failed to take more effective 
action.
    On occasions where the international community has intervened, and 
put forces on the ground to halt human rights abuses, international 
tribunals have not normally been a part of the subsequent arrangements 
for stabilization and reconstruction. Once ones own forces are on the 
ground, and the killing has stopped, the case for reconciliation begins 
to counterbalance that that for justice. In such circumstances, the 
United States and the United Nations have both tended to allow the 
local societies to establish their own balance between two. It is, 
thus, Iraqis who will determine the fate of Saddam Hussein and his 
lieutenants. It is Prime Minister Alawi and his colleagues who will 
determine where retribution ends and amnesty begins. It is Afghans who 
have been left to determine how to deal with former Taliban leaders.
    Support for international tribunals has been premised on the view 
that such courts serve the cause of both justice and reconciliation. 
The case for justice is clear. The case such efforts producing 
reconciliation has yet to be conclusively demonstrated.
    Where to these musings leave us with respect to the Balkans? The 
international community, having invested a decade of effort in support 
of the Hague tribunal, must carry through on that committment. Bosnia 
and Serbia must comply with their international obligations. In 
providing incentives and disincentives leading them to do so, we should 
not lose sight of our overriding objective, which is to provide 
effective support for the continued democratic transformation of these 
societies. In the future, as the international community seeks to help 
other societies emerging from conflict, it should design arrangements 
for transitional justice as part of a comprehensive approach to 
stabilization and reconstruction, not as an alternative.

    Senator Voinovich. Thanks very much.
    Mr. O'Brien.

 STATEMENT OF JAMES C. O'BRIEN, PRINCIPAL, THE ALBRIGHT GROUP, 
                              LLC

    Mr. O'Brien. Thank you, Mr. Chairman and Senator Biden. My 
written statement is submitted for the record and I will 
summarize it. I will put a special focus on Serbia and Kosovo, 
and I will talk about a few operational aspects where I do 
disagree with current policy rather than analyze the situation.
    On a small note, before I begin, I would like to thank 
Laurie Dunden, who helped open the U.S. office in Kosovo 
several years ago and helped me prepare today, and Casey Owens, 
who also helped me prepare for today and seems to have found a 
seat in the room.
    The problem in the region in Serbia and Kosovo, Mr. 
Chairman, is that we have half a policy, and that is left over 
from several years ago. Our goals should be to work with the 
democrats in the region so that they are able to achieve things 
that help them remain in power at home, and thus they are able 
to help us achieve the goals that we have for the region. 
Instead, over the last several years, we have defined our 
policy in both places exclusive in terms of our own issues and 
in ways that undercut the democratic leaders. This makes it 
less possible for them to carry out the policies that we see as 
to the advantage of the United States and our allies.
    Now, I will put it starkly. I believe that U.S. policy must 
insist on cooperation with the tribunal, and I believe that 
U.S. policy must insist that anyone who wants to live in Kosovo 
be able to do so safely and normally. But that cannot be the 
end of our policy. It is only the start of the policy. So let 
me explain what I think needs to be added to the policy in 
fairly broad terms.
    In Serbia, I think we should start from a simple premise. 
The people in Serbia who oppose arresting war criminals and 
cooperating with the tribunal and who oppose military reform 
and who stand with the organized criminals are the very people 
who also attempt to undercut the democratic leaders, who have, 
fortunately, just now formed a revived coalition. I think the 
answer at this point is to continue to insist on performance, 
as the administration properly is doing, but to step up our 
engagement with the democratic leaders so that they are able to 
carry out effective policies aimed at reforming their 
intelligence services, their military, and at arresting the war 
criminals, cooperating fully with the tribunal, while also 
helping Serbia move closer to Europe.
    So what does that mean in practical terms?
    First, the entire panoply of military assistance ought to 
be brought to bear in cooperation with our counterparts in 
Serbia.
    Second, I think the United States should make it a priority 
to urge the European Union to move as quickly as possible 
forward on the membership process for Serbia and Montenegro, 
the stabilization and accession agreements, the engagement of 
structural adjustment assistance, et cetera. The purpose of 
this is to achieve the very goals that we all share, that 
Serbia and Montenegro become a full part of the European Union 
and that they are able to bring to justice the people who 
committed crimes in the 1990s.
    Now, with regard to Kosovo, over the last several years, 
international policy has been coasting, doing virtually 
nothing. March was a wake-up call. And I want to thank the 
administration for its serious senior level engagement since 
March. I think Marc Grossman in particular deserves credit for 
injecting American leadership again. Without that, we would 
have seen more violence.
    Unfortunately, the policy remains more of the same, 
standards before status, and with more of the same, we will get 
more of the same. Violence is again on the agenda, and 
extremists will decide when we see more violence in Kosovo.
    So what is it that we need to do in order to change the 
situation?
    Well, Mr. Chairman, I think there is very good work that 
has been done on the issue of effective local governance. I do 
not think it is difficult to develop the options for Kosovo's 
end state. It seems, however, impossible to find a way to get 
to them.
    We should also be realistic. Right now, there is no hope of 
a serious change in international policy toward Kosovo until 
2005. The United States has our election. The European 
Commission is undergoing a major overhaul. There are elections 
in Kosovo, and Senator Biden, in response to your question, I 
think there will be elections in Serbia probably early next 
year.
    So the issue before us today what is it we should do 
between now and next summer in order to make 2005 a time of 
decision. If we do not take steps now, 2005 will be a date for 
further delay and I fear for further violence. So what are a 
few things we might do?
    One, I think we have to decide that it is time for UNMIK to 
end. By 2005, it should be drawn down and that mission should 
be over. There may be some residual international authority 
remaining, but UNMIK is finished. It is too large. It is unable 
to deliver to the people of Kosovo, Albanians and Serbs, the 
safety and prosperity that they deserve. It removes 
accountability from those who want to govern themselves, and it 
makes them dependent.
    Now, in order for this to happen, the new SRSG needs to be 
given the authority to reform the mission and focus only on a 
few specific tasks over the next year. One of those I think is 
security, as you have quite properly emphasized, Senator 
Voinovich, over the last years. The second I believe is 
corruption. I think an independent international set of 
investigations can do a lot to restore the confidence of the 
people of Kosovo that as private businesses begin to work, they 
will be able to operate freely without being traded upon by 
political forces. That will be one set of changes that will 
really begin to alter the atmosphere in Kosovo over the next 
year.
    A second step is that we do need to transfer the powers to 
the people of Kosovo. They need to be able to govern 
themselves. In other parts of the world, we seem able to move 
self-government forward very quickly, and yet in Kosovo we do 
not. Now, I would say that as we provide more authority, we 
need to hold local officials accountable, especially so that 
Serbs are able to live. I would say one particular thing we 
should do is insist on the creation of a new ministry for 
returns and human rights, and it should be headed by a Kosovo 
Serb and it should be given a decent budget, including the 
ability to assist communities that welcome Serbs back. Having 
one accountable ministry is one way that we can begin to show 
progress on the ground over the next years.
    The third thing that should happen is a strong focus on the 
economy. The despair among Kosovars about their economy is 
deep-rooted and growing. Over the 6 months before March, 
pessimism about economic prospects in Kosovo grew dramatically, 
and I think it played a direct role in people's frustration and 
anger. Privatization must go forward. We must address 
corruption and find ways to create jobs.
    Fourth, KFOR needs to restore its credibility. American 
troops performed very well in March, and since then, there have 
been a number of technical changes that have improved 
communication with the local communities. But I think we need 
good political guidance to KFOR. It needs to look for ways to 
reassure Serbs and Albanians that when violence erupts, it will 
be able to handle it. Right now, I think people believe that 
the extremists will have the upper hand next time around.
    In conclusion, Mr. Chairman, I would like to take a step 
back. And I agree with Ambassador Dobbins. Despite these 
specific problems, the situation in the region today vindicates 
the decision of the U.S. to intervene in 1995 and to lead in 
the years that immediately followed it. Peace continues and I 
do not think is likely to be disrupted, other than by extremist 
violence. Terrorism is much less a threat from the region than 
it was in 1995. Hundreds of thousands--more than a million 
people have been able to return home in Bosnia and Kosovo.
    Our alliances grew stronger. Our European allies have 
developed new military capabilities through their involvement. 
We have shared burdens with them. America has contributed less 
than 20 percent of the civilian and military resources in the 
Balkans.
    And finally, no American has been killed from hostile 
action in these peacekeeping operations. We have done that 
well. Democrats and Republicans have supported it. And it has 
been an effective mission.
    It is always an honor to appear in this room. It is a place 
where Americans are reminded of our overseas responsibilities 
and we are able to talk about issues that may be uncomfortable 
or may be forgotten. The Balkans is an issue we cannot forget. 
For hundreds of years, empires have rubbed against each other 
in this territory. It has been the place that in the eyes of 
too many people Europe stopped. Now we have the opportunity for 
Europe to extend all the way from the Adriatic to the Black Sea 
to the Baltic to the Atlantic. This is an opportunity we cannot 
squander. For generations we may not have it again, and unless 
we revive our policy today, we may lose this opportunity.
    Thank you very much for calling attention to this region, 
Mr. Chairman.
    [The prepared statement of Mr. O'Brien follows:]

                 Prepared Statement of James C. O'Brien

    Thank you, Mr. Chairman. The review of U.S. policy toward the 
Balkans is timely. This region is the main piece missing in the long-
held goal of a Europe whole and free, democratic and peaceful.
    I will focus on the states of the former Yugoslavia and in 
particular on the situation in Serbia, Montenegro, and Kosovo.
    This panel will discuss challenges remaining in the region, and 
much of what we say may sound negative. It is right for the friends of 
this region to be blunt about the problems it faces. But we must not 
fall into the trap of dismissing the region's successes or ignoring its 
progress. The problems of post-conflict engagement in Iraq, 
Afghanistan, western Africa, the Congo, and Haiti lead some to say that 
America should avoid engagement in regions emerging from conflict. Mr. 
Chairman, we do not have such a choice but to engage. And there is much 
we can learn from the Balkans as we engage around the world.
    In this region, the picture as a whole vindicates the U.S. decision 
to intervene in the 1990s and our leadership in pressing for this 
region to be brought into a Europe whole and free. Slovenia, where the 
first war of Yugoslav dissolution was fought, is a NATO ally and EU 
member. Croatia will become a candidate for membership in the European 
Union, and Macedonia may also receive a decision on its candidacy next 
year. Before the end of this year, Bosnia may start a feasibility study 
for its EU candidacy, and the country is not a source of tension 
between Serbia and Croatia.
    As a result of the decision to intervene in the Balkans, our NATO 
alliance was strengthened, our European allies are developing new 
security capacities, the U.S. military has performed brilliantly--and 
with no deaths from hostile action--and the United States has learned 
much about what it takes to help a country make the transition from 
conflict to peace.

                     SERBIA, MONTENEGRO, AND KOSOVO

    Of course, every country in the Balkans faces considerable 
challenges, and the struggle to establish democratic societies is not 
over. The greatest challenges lie in Serbia, Montenegro, and Kosovo, 
and it is here I will focus my remarks.
    Even here, the picture is nuanced. In Serbia, democratic forces 
worked together to elect a Serbian president who is committed to 
European integration and economic reform. The Prime Minister and 
President each are democrats, and they have stabilized a democratic 
coalition that has been in constant deterioration since it assumed 
power. In Kosovo, 135,000 Serbs are registered to live in Kosovo, and 
more than 60% are outside the Serbian enclave in northern Kosovo. And 
Montenegro repeatedly has affirmed again its commitment to joining 
European structures.
    The challenges in the region do not grow from U.S. policy, but we 
must acknowledge that an effective U.S. policy could do much to improve 
the situation.
    For the last several years we have had half a policy toward Serbia, 
Montenegro, and Kosovo. We have defined our relationships exclusively 
in terms of issues that are politically difficult if not suicidal for 
democratic leaders. It is of course critical to demand accountability 
for atrocities of the 1990s and protection of human rights. I helped 
develop the policies that insist on both goals and would not support 
any U.S. policy that did not. But we should insist on performance on 
those issues in a way that helps those leaders carry out policies that 
would win them credit at home.

Serbia
    In Serbia, we should answer the calls of the democratic President 
and Prime Minister and make clear, publicly, that as soon as possible 
Serbia will be in NATO and will receive our support for its EU 
candidacy. We should engage actively and as necessary increase our 
assistance--financial, technical, and diplomatic--so that we can use 
our engagement as a tool to help democratic leaders reform the military 
and intelligence services, arrest war criminals (and destroy the 
networks that protect them), create jobs, and attack organized crime. 
If Serbia's democrats can produce benefits for their citizens and 
overcome revanchist forces that remain strong there, America and our 
allies will be safer; if they can achieve those goals with our help, 
America will have strengthened our partnership and position in Europe.

Montenegro
    Montenegro may--or may not--have a sustainable majority in favor of 
independence; the majority remains solid but slim, and the opposition 
remains strong. Its leadership--looking at these facts--has decided to 
make its shotgun marriage to Serbia so arduous that the Serbs will ask 
them to leave, thus ending the debate. There is little chance of this 
happening in the foreseeable future. As a result, the joint 
institutions of Serbia and Montenegro do not work, and military and 
economic reforms are jeopardized.
    The United States has let the European Union set the agenda on this 
issue. It is time for the United States to speak up. At a minimum, the 
United States should urge the EU to:

  <bullet> let Montenegro decide its own fate next year, three years 
        after the signature of the agreement that created Serbia & 
        Montenegro.

  <bullet> open discussions toward possible EU membership on separate 
        tracks with Serbia and Montenegro.

    The Montenegrins, who made a brave decision to oppose Slobodan 
Milosevic and stand by the United States during a pivotal time for the 
region, deserve the chance to make up their own minds about the future 
of Montenegro, and the people of both Serbia and Montenegro deserve to 
shape their own destinies in Europe without an artificial union slowing 
them.

Kosovo
    Kosovo is the most urgent issue facing the region. I am proud of 
the part that the United States played in reversing Milosevic's ethnic 
cleansing five years ago. Nearly one million people returned home, and 
with U.S. leadership NATO and the UN have played important roles in 
helping these people live without oppression.
    But we have not done enough. The continued violence against Serbs 
is abhorrent. It is a stain on the reputation of the people of Kosovo, 
and it drains international interest in addressing Kosovo's final 
status.
    Thankfully, most Kosovars do not support violence. But after the 
crimes of March it will be the extremists who decide when violence may 
erupt again. The Albanian political leadership was outflanked and 
surprised by the violence and cannot be counted upon to contain future 
explosions. Also, the extremists' calculations have changed. In March, 
UNMIK appeared hapless, and KFOR appeared to be a force hollowed out 
and left without political guidance. Extremists will be looking for an 
opportunity to test whether we have learned the lessons of March.
    In the months since March tensions would have worsened without the 
personal involvement of senior U.S. officials, especially Marc 
Grossman, the Under Secretary of State. I applaud these efforts, and 
they have produced some gains. Privatization will resume, more 
authority is being given to Kosovo's democrats, there are reasonable 
discussions about creating local governments that will reassure Serbs, 
and the trade regime has been improved.
    But the broad policy remains more of the same. As a result we will 
get more of the same. We continue to apply a policy designed as an 
interim approach five years ago, when Serbia was ruled by a 
dictatorship and Kosovo had been destroyed by a brutal war that ejected 
approximately one million of its inhabitants. It is time to shore up 
Kosovo's own democrats and to help Belgrade's democrats move their own 
politics beyond this issue.
    In simple terms, Kosovo's final status is impossible but not 
difficult. We must find a way to let Kosovars govern themselves and 
decide their future while also making it possible for any person who 
wants to live in Kosovo.
    A realistic agenda should start from the premise that Kosovo's 
final status will not be taken up formally until 2005. The Contact 
Group decision, against a backdrop of elections in the United States, 
in Kosovo, and probably in Serbia mean that not much will happen until 
then in any case. (In fact, positioning for final status negotiations 
has begun already as the sides put out options and suggest redlines.)
    My fear is that 2005 will be a date for further delay, and that 
will lead to violence. Our policy now must be to take steps that ensure 
2005 will be a date for decision. For that to happen over the next 
months we should take several steps.

First, UNMIK must get out of the way, although NATO must stay
    Even before March 2004, public respect for UNMIK and the SRSG had 
fallen by more than 50%, according to UNDP. Kosovars will be reassured 
if they see change. Several things should happen:

  <bullet> UNMIK should prepare to end in 2005, leaving behind a 
        residual international presence--possibly EU, ad hoc as in 
        Bosnia, or even a light UN presence--with limited veto rights 
        on decisions taken by the Kosovar institutions. The new SRSG 
        should have a mandate to reform and wind down operations.

  <bullet> As part of its reforms, UNMIK should focus on two issues 
        that make the greatest difference to ordinary Kosovars: 
        security, especially for Serbs, and corruption. The latter will 
        be particularly important as privatizations become more 
        frequent.

Second, give Kosovars full self-government
    Kosovo's own provisional institutions should receive more 
responsibilities. This can be done by revising UNMIK's mandate or, more 
likely, by sharing responsibilities within that mandate. Kosovo 
deserves self-government, not a quasi-colonial administration.
    As a matter of special importance, Kosovo's governing institutions 
right now should be held accountable for making it possible for Serbs 
to live in Kosovo. The PISG should add a ministry for returns and human 
rights, put a Serb in charge of this ministry, and provide an adequate 
budget, including for assistance to communities that support returns of 
Serbs.

Third, the economy should be the main priority of the PISG
    Seventy-five percent of Kosovars are pessimistic about their 
economic prospects, and the percentage of Albanians expressing 
pessimism jumped 20% in the months leading up to March 2004. Investment 
by small and medium enterprises fell sharply from 2002 to 2003. 
Registered unemployment rose 30% in 2003, creating a steady annual 
increase of 10-12%. The violence of March 2004 will make it worse. 
Asked whether the environment in Kosovo is positive for business, 4.4% 
of Albanians said yes; 7.7% of Serbs were positive, as were 6.2% of 
other groups.
    Improvement involves three steps, which UNMIK and the PISG should 
undertake together:

  <bullet> Unlock domestic savings. These have grown at a tremendous 
        rate. Unfortunately they are not circulated into the economy to 
        support small businesses and home purchases at the rate they 
        should. Support for lower interest rates and longer maturity 
        periods would help.

  <bullet> Accelerate privatization, especially in the area of 
        manufacturing for export. This will require decisions on state-
        owned enterprises and municipal properties. Perhaps communities 
        that support efforts to keep Serbs living in Kosovo could be 
        given special authorities in this regard, as a way of keeping 
        the returns--and the communities as a whole--economically 
        viable.

  <bullet> Fight corruption. To attract investment, Kosovo must be 
        transparent about both the process for tenders and the 
        conditions of the investments.

Fourth, KFOR must remain at strength, and remain for several years
    KFOR is one institution that many Kosovars look to with respect. 
Still, some units (not the U.S. sector) have received heavy criticism 
for their performance in March. KFOR should look for ways to rebuild 
its credibility. It must have clear rules to engage when violence 
breaks out, it should communicate this to local leaders (and plan with 
them), and it must be resolute in engaging with communities to prevent 
and respond to problems as they arise.
    It will be difficult to keep troops with the proper kinds of 
training and equipment in Kosovo. Capable EU allies are shifting forces 
to Bosnia, where the EU will take on the mission. The recent initiative 
to expand a carabinieri force, able to investigate organized crime and 
work as a unit to control demonstrations, is very welcome.

Fifth, prepare for status discussions
    There are steps that only the international community can take.

  <bullet> Engage Kosovo's Serbs.

          Kosovo is their land, too, and they are the community most 
        endangered by uncertainty and violence. Naturally, they look to 
        Belgrade for support and guidance. But Belgrade has its own 
        domestic pressures to consider and will not always be in 
        position to speak for Kosovo's Serbs. It is inexcusable to 
        negotiate the future of this land without hearing the voices of 
        all those who are trying to keep Kosovo multiethnic.

  <bullet> Prepare a simplified process for resolving Kosovo's status.

          Most proposals suggest bilateral talks between Belgrade and 
        Pristina, or a UN Security Council vote, or regional 
        roundtables, or other multiple step approaches. The 
        anticipation of such a process puts strains on politics in 
        Belgrade and in the Council. There should of course be 
        discussions in these venues, but they should remain informal 
        ways to ensure that Serbian interests are met as best possible. 
        Lengthy discussions about the shape of the table will prolong 
        the process unnecessarily and keep tensions high. We should 
        look for an expeditious, straightforward process..

Sixth, the electoral system should change to open lists
    The current system, in which voters select party slates, builds up 
the party leaderships. Under an open list system, voters could select 
individual candidates. This would bolster the government, because 
individual politicians could challenge party discipline without losing 
their ability to win election.
    Mr. Chairman, thank you for this hearing. We have a chance to help 
the people of the Balkans complete an historic transformation, so that 
Europe can be whole and free. In many countries they are doing well. In 
Serbia, Montenegro, and Kosovo, they need effective U.S. leadership, 
with our allies. If we continue to coast we may lose our longheld goal 
of seeing Europe be whole and free. And we will fail all those in the 
region who want to live in peaceful democracies.

    Senator Voinovich. Thank you, Mr. O'Brien.
    Mr. Vejvoda.

STATEMENT OF IVAN VEJVODA, EXECUTIVE DIRECTOR, BALKAN TRUST FOR 
 DEMOCRACY, GERMAN MARSHALL FUND OF THE UNITED STATES, SERBIA 
                         AND MONTENEGRO

    Mr. Vejvoda. Thank you very much, Mr. Chairman. It is a 
true privilege and honor to be invited here to speak in front 
of the Committee on Foreign Relations of the Senate.
    Let me start out by an unsung positive story of the 
developments in the Balkans, especially after the defeat of 
Milosevic in the elections. I think that rightly the Balkans 
have not been in the news because they have not been as 
dramatic as they were in the last decade of the last century. 
But on the other hand, the bad effect is that public opinion 
internationally has not heard about the small victories of 
democracy in our countries, and I am talking about the region 
overall. It has been said in the earlier panel about the 
overall movement. Slovenia is now a full member of the EU and 
NATO. Romania and Bulgaria have joined NATO. They are finishing 
rounding off their negotiations for EU membership. Croatia has 
become a full candidate. Macedonia has tendered its candidacy. 
Stabilization and association negotiations are being conducted 
in Albania and Bosnia. Serbia remains at the moment the 
laggard. But I would say with the victory of President Tadic 
recently, we have another confirmation, if anyone was in doubt, 
that Serbia made the irreversible turn back in 2000.
    It is difficult, of course, from the outside to gauge the 
fine-tuning effects in an early pluralist democracy where 
parties have to create their identities and are engaged in a 
legitimate competition in the political market, while at the 
same time they have to work in unison for the deep-seated 
reforms that are required. And that is where we have friction. 
That is where we have a difficulty of understanding why is it 
that democrats, reformists, modernizers in these countries find 
it hard to find that unified voice. It is simply because that 
is the nature of a pluralist democracy. I think that one should 
dwell on that in looking at these countries.
    The level of regional cooperation is, I would say, immense 
when one looks by comparison to 4 years ago. There is a 
grassroots regional cooperation process called the Southeast 
European Cooperation Process. There are networks of youth, of 
business exchanges and travel, since visa regimes were 
relinquished, for example, between Serbia and Croatia last 
summer. The investments from Croatia into Serbia, for example, 
or from Slovenia into the southern part of the region, the free 
trade agreement bilaterals that have been signed throughout 
these countries, all these and many more examples testify to a 
burgeoning regional life, not only because Brussels or 
Washington say it is good for you to cooperate, because in that 
way you are espousing democratic values. No. It stems from the 
awareness in the region that only as a region of 55 million 
people do we mean something in the global market.
    Individually as countries we are small, economically weak, 
and I would like to second what Jim O'Brien said before me 
about the economy. What he said about Kosovo I think applies to 
the whole region. The lack of jobs or the high level of 
unemployment is a danger to democratic reforms, is a danger to 
the beginnings of democracy in this region. If people do not 
have meaningful jobs, if they do not have livelihoods that can 
provide for decent food on the table, then all the effort that 
we are putting into nation building, into civil society will 
not, unfortunately, give results. Thus, I would urge that we 
also think of the economy when we think about unfinished 
business in the Balkans.
    Also to second what has been said, I do not think there is 
any major transatlantic rift. On the contrary, there is a 
unison of vision between the U.S. and Europe, and I think that 
is extremely good and we should use it for future robust 
engagement in support of the democrats and modernizers. I 
really think that we should dwell upon the fact that democrats 
have been reelected in governments looking toward the future, 
toward European integration and Euro-Atlantic integration. If 
these people do not get support, if they do not succeed, then 
we will have the populist nationalist backlash. People will 
seek what a colleague in Bulgaria has called the casino voter 
system; i.e., they will choose anybody just to try out if that 
somebody new can deliver better economic results in their 
pockets and for their households. So democratic reformers are a 
fragile species. They are majoritarian, but if they cannot 
deliver, then they will not succeed. And I think this goes, as 
I said, for all these countries.
    I think that an important note that has not been mentioned 
here, when speaking about Bosnia and Herzegovina, has been the 
acknowledgement by the President of Republika Srpska of the 
crime committed in Srebrenica. I would note that as a positive 
development in acknowledging the past evils that we have 
witnessed.
    The victory of Tadic is extremely important in all sorts of 
ways, politically, symbolically. In his previous job, as has 
been mentioned, as Minister of Defense, I think he has worked 
diligently to embark on this difficult road of the reforms of 
the security and military services. We have seen these 
difficulties in countries like Poland or Slovakia in the past. 
It needs determination. It needs commitment, but it needs 
support from the outside. Thus, membership in Partnership for 
Peace as soon as The Hague cooperation is delivered. And I 
believe, Mr. Chairman, that we will see in Serbia delivery on 
Hague cooperation in the near future.
    Again, I can second what has been said, that there is full 
awareness. People do get it now, and the democratic consensus 
has been achieved. This must happen because it is the obstacle 
of all obstacles for the future development of Serbia.
    A note on Serbia and Montenegro and the state union. The 
bad news has been that unfortunately since the tragic 
assassination of Prime Minister Djindjic, we have not had 
movement toward European integration of Serbia and Montenegro, 
and by that I mean the past 16 months. This is not good because 
other countries are moving. The good news is there is positive 
peer group pressure by Croatia, Macedonia, Slovenia, and the 
neighboring countries. I talk about it as a pincer movement of 
democracy and security around the core of the Balkans, Serbia, 
Montenegro, Bosnia and Herzegovina. Thus, I would advocate a 
creative and imaginative approach to keep the union, and see if 
we can consider a parallel movement of Serbia and Montenegro 
toward European integration. I think there are some thoughts 
about that in Brussels. Deputy Prime Minister Miroljub Labus 
has advocated that very forcefully. I think we need to move out 
of the starting blocks on our European integration process.
    When delivery to The Hague happens, I think we should 
immediately seek membership in Partnership for Peace. We need 
to see those results so the reformers and leaders of these 
countries can develop further.
    We are on the brink of success in the Balkans. We should 
not squander the moment and let loose the springtime of 
democracy that is occurring.
    Thank you very much.
    [The prepared statement of Mr. Vejvoda follows:]

                   Prepared Statement of Ivan Vejvoda

    Mr. Chairman, Senators, it is a great honor to be invited to speak 
today before this venerable Committee of the United States Senate. It 
is most fitting that on this anniversary of one of the great democratic 
revolutions we are convened to address the issue of democratic 
consolidation in the Balkans, which comes at the end of a long, more 
than bicentenary ark of struggles for democracy and political 
modernity.

                   INTRODUCTION: THE POSITIVE DYNAMIC

    We are in the Balkans witnessing a steady movement of stabilization 
and consolidation. The region is moving away from the conflict and 
post-conflict zone and moving into one of renewal, development and 
democratic institution-building. The political dynamic in the region 
interestingly follows in a metaphorical sense the weather patterns. 
These move in southeastern Europe from the northwest to the southeast. 
The political skies have been progressively clearing in the same 
manner.
    It is no minor achievement to be able to say that today we have 
democratically elected governments in all the countries of Southeast 
Europe. Since the defeat of Milosevic's regime in Serbia, through the 
ballot box, in a peaceful non-violent manner by deliberate choice, the 
region of the Balkans overall has steadily regained its political 
democratic bearings. This, in no manner of speaking, means to say that 
we can sit back and be complacent. On the contrary there is still 
significant unfinished business as the title of our hearing so aptly 
and prudently remarks.
    But, the point of these introductory thoughts is to say that there 
is a positive story in the Balkans that is not getting out. The reasons 
are many: attention internationally has shifted elsewhere, there are 
more burning issues in other parts of the world, the Balkans seem by 
comparison in less need of attention, but also because when focus on 
the Balkans occurs it is most often solely because of the outstanding 
and still unresolved issues.
    For a full understanding of the region we need to espouse a complex 
view which can then lead to prudent, rational and effective policy 
measures which can help southeast Europe speedily and efficiently reach 
the ultimate goals of burgeoning democratic institutions, effective 
division of powers, the rule of law, respect for the rights of 
minorities--all topped with membership in EuroAtlantic institutions. 
This region of the world compared to others is close to a success 
story, but at the same time still in danger of missing its rendezvous 
with success unless all the concerned stakeholders, primarily domestic 
and then international do not devote the necessary attention and 
resources to bringing the Balkan ship to its EuroAtlantic haven with 
necessary determination and commitment.
    This is all the more important because the region is a post-
intervention area (however one views the issue of intervention, whether 
one agrees or disagrees with it), just as is the case with other areas/
countries in the world today further to the East and South. There are 
important and useful lessons, both positive and negative, to be learnt 
from the Balkans that can be used and applied to the new post-
intervention situations, all things being equal. Also the transatlantic 
community has a unity of view and purpose in Southeast Europe and that 
is the goal of EuroAtlantic integration. This view and purpose should 
be further nurtured and boldly reinforced.
    Something went terribly wrong in this southeastern part of Europe 
in the last decade of the 20th century. We as many other post-Second 
World War generations had been brought up in the spirit of: ``this must 
never happen again'' (i.e. violence, war, crimes against humanity). And 
yet it happened to the communist country that seemed closest to making 
a break with the past and making it into the EuroAtlantic family. Why 
did this happen? The absence of democracy to put it most simply. Today 
in the Balkans the countries, societies, peoples and their democratic 
leaders realize that democracy and the rule of law is the way forward. 
There is nothing easy or quick about this process of democratic 
transition, on the contrary, but the course has been set and it is 
being maintained against all adversities.
    The victory of Boris Tadic, the democratic, pro-EuroAtlantic 
candidate, in the Serbian Presidential election and his inauguration 
this last Sunday on July 11, is but the latest in a line of clear 
examples of this claim. President Tadic exemplifies the new forward-
looking democratic leader of the region--a prudent consensus-builder, 
repairing the broken bridges with neighbors, acknowledging the 
difficulties of the inherited legacy and of the challenges ahead, 
sensitive to the suffering of those bearing the social costs, yet 
determined and committed to pursue the hard work of societal and 
political change so as to create stability and peace.
  the encompassing process of democracy and euro-atlantic integration
    We should pause an instant and simply remember where we were for 
example only four years ago when many of the cognoscenti of the Balkans 
were saying, for example, that we in the democratic opposition in 
Serbia, writ large, would never be able to achieve an electoral victory 
over the regime of Milosevic and then defend that same victory. The 
power of the people, the desire for liberty and justice, the capacity 
to organize and sheer resilience--is often underestimated, but neither 
should it be taken for granted.
    Also, just as importantly the region, having in its majority 
jointly found its political democratic north on the compass, has both 
due to a grassroots awareness and to political leadership and vision 
begun to work together as a region of Europe. There are today as a 
result of intense cooperation in Southeast Europe a myriad of Balkan 
wide networks, webs of bilateral agreements in a number of fields, 
cross-border links, projects and activities. Exchanges, the free flow 
of people, ideas and goods since the conflicts ended have exponentially 
grown although not equally in all these areas, all these processes need 
to grow further. To many this is an invisible network. But it has taken 
on a life of its own and is a crucial component of the general movement 
toward the recognition, fostering and then buttressing of common 
interests and approaches to joint challenges. Not least the struggle 
against organized crime, trafficking, then addressing environmental 
issues, finally last but not least jointly seeking solutions to 
economic challenges.
    The European Union in particular and then NATO have represented a 
strong magnetic pull on the whole region. The progressive movement of 
all countries at their varying speeds toward these political and 
security frameworks has been testimony to their realization that only 
as democratic polities in which mutual responsibility and solidarity 
with others is a nurtured moral and political value can the region 
succeed. The advance has been notable:
    Slovenia (as a former republic of Yugoslavia) is today a full 
member of both the European Union and NATO. Romania and Bulgaria have 
also in the latest enlargement of NATO become full members. Both these 
countries are finalizing negotiations for EU membership. Croatia last 
month was officially proclaimed an official candidate for EU membership 
and will shortly begin negotiations for accession to full membership. 
Macedonia (the Former Yugoslav Republic of Macedonia) in March this 
year put forward its candidacy for membership in the EU. Albania is 
negotiating a Stabilization and Association Agreement with the EU.
    Albania, Croatia and Macedonia are all members of NATO's 
Partnership for Peace program and are together members of the Adriatic 
Charter--a regional security agreement. These countries are in the 
process of preparing their next steps toward NATO membership partaking 
in many a common venture.
    This generalized dynamic, as described, goes around two countries 
Bosnia and Herzegovina, and Serbia and Montenegro that are on the 
doorstep of both Partnership for peace and the beginning of the EU's 
Stabilization and Association Process. These two countries are 
enveloped by a sort of democratic, EuroAtlantic integration pincer 
movement. This is important to note because the countries of the 
Balkans act as communicating vessels. There is a positive effect of 
peer group pressure at this historical juncture. The fact that all the 
countries around Bosnia and Herzegovina and Serbia and Montenegro are 
projecting themselves forward is creating a pulling effect which is 
most tangible.
    One should not underestimate in this regard the positive example 
for the region of the Greek-Turkish process of reconciliation and 
fostering of intensified exchange and cooperation. The championing by 
Greece of Turkey's dynamic to accede to the negotiating process for EU 
membership is being emulated in mutual relations by the other countries 
of the Balkans. It is by being each others champions that the countries 
are already demonstrating in the most palpable way their awareness that 
regional cooperation and partnership is a significant element of 
upholding democratic and European values.
    There are democratic reformers working with their majoritarian 
constituencies to change their societies for the better. These 
reformers and their societies need support to carry on the task of 
democratic institution building. The adversities are still notable and 
the pitfalls numerous on this lengthy road are not to be in any way 
minimized or underestimated.

                                 SERBIA

    If anyone was in doubt about Serbia's irreversible turn to 
democracy in 2000 then the result of the presidential election just two 
weeks ago with a clear cut victory of the democratic candidate Boris 
Tadic should have laid the last suspicions to rest. This was a most 
significant victory, a crucial political moment in a key Balkan 
country.
    The new president as mentioned above is part of a broader new 
generation of hardy forward-looking democratic leaders who are 
grappling with the reality of a difficult economic situation while 
pushing forcefully for compliance with all outstanding international 
obligations of the country. Cooperation with the International Criminal 
Tribunal for former Yugoslavia (ICTY) is the foremost one, and in his 
inaugural speech he clearly marked it out as a priority. There are no 
reservations on his part, and as Minister of Defense of Serbia and 
Montenegro he forcefully engaged the process of reform of the military 
and its security services. With other key leaders at the time of the 
March, Kosovo violent events he took a most responsible position in 
seeking to work hand in hand with the UN, EU, NATO, OSCE in finding a 
solution to calm the tension and end the violence and suffering.
    I believe we shall see in Serbia intensified cooperation with the 
Tribunal in the Hague in the very near future. I say this because it 
has become patently clear over the past several months that this is the 
obstacle that is impeding the way forward in any direction for Serbia. 
The democratic political elite across political party differences has 
come to this conclusion. Results are imminent. I also firmly believe 
that society in general will accept gladly this enhanced cooperation 
and not be held hostage to a certain number of indicted individuals.
    This means that Partnership for peace membership, and the ``open 
doors'' that were mentioned at the recent Istanbul NATO Summit, should 
be implemented as quickly as possible upon recognition that cooperation 
with the Hague Tribunal is occurring.
    Recognition in the form of movement forward in integration 
processes, or for example relinquishing of visa regimes--are crucial as 
incentives on the long road toward democratic and market-based 
societies. The social costs being paid along that road are enormous 
(deindustrialization has taken a great toll on the labor force) and 
thus democratic reformers are exposed to high popular expectations. If 
they cannot deliver, society can easily become prey to populist 
demagogues of an extreme right-wing orientation. The result obtained by 
the nationalist, populist candidate in the recent presidential 
elections and his party's result in the December 2003 Serbian 
parliamentary elections are a clear warning and should alert all to the 
dangers of failure of democratic reforms.
    Serbia is also confronted with its as yet undefined relations 
within the State Union of Serbia and Montenegro. This is particularly 
important for the process of European integration--a key priority for 
the country. The outstanding issue is the absence of a single market 
between the loosely linked states of Serbia and Montenegro (both 
deriving their full modern statehood from the Berlin Congress in 1878). 
The European Union in upholding its criteria for entry has demanded a 
full harmonization of all products following an Action Plan defined in 
2003 after the voting in of the Constitutional Charter of the State 
Union (February 2003). A small number (56) of agricultural products 
have become a lasting stumbling block as well as the custom's regime 
and the certification of origin of products. This has among other 
issues completely halted Serbia and Montenegro's movement on the road 
to the EU.
    Much frustration exists because of this and also because domestic 
stakeholders believe (both in Serbia and Montenegro separately) that 
they could in fact have already moved toward integration had it not 
been for these ``impediments.''
    By way of reminder: the Federal Republic of Yugoslavia was recast 
into the State Union of Serbia and Montenegro for rational, prudent and 
regional security reasons. One was to uphold regional stability at the 
end of 2001. The European Union then stepped in to broker a new 
relationship recognizing each of the two states' levels of acquired 
internal competencies, on the basis of an agreement with the actors.
    The assassination of Prime Minister Zoran Djindjic on March 12 last 
year was a dramatic loss of one of the most determined democratic 
leaders and reformers in the Balkans. His tragic death which many 
thought would throw Serbia back into darkness only proved in the most 
terrible way (as he himself said in a number of interviews weeks before 
the assassination) that Serbia had become a democratic state. This 
democratic state was able to throw back the gauntlet with which it had 
been challenged and prove that the Serbian democratic institutions 
however fledgling were functioning and were able to keep Serbia on 
track. Zoran Djindjic had laid himself into the democratic foundations 
of our country.
    Zoran Djindjic always invoked the need to observe the broader 
social and political dynamic so as to understand the underlying issues. 
His death clearly took a huge toll, pointed to the unreconstructed 
security services and drained much energy and time from the democratic 
forces in an hour of danger.
    In this overall context one needs to understand that Serbia is only 
in its fourth year of transition. One has to hark back to 1993 to 
compare Serbia to where for example Poland, Hungary, Czecho-Slovakia 
(still one country then), were in their fourth year. Yes, Serbia is a 
laggard and should be moving faster. I am convinced, as I was with the 
victory over Milosevic's regime, and of the victory of Boris Tadic, 
that Serbia will now make an important step forward.
    It is interesting to see how in Serbia some significant political 
figures are invoking the positive move forward of Croatia as a positive 
example for Serbia. This is an example of the communicating vessels, 
peer group claim and the effectiveness of mutual positive incentives.
    Politically in Serbia, after the Presidential election, we shall 
see a cohabitation with the incumbent government of Prime Minister 
Vojislav Kostunica. The President has rightly voiced the need for 
political stability, for the greater public good, i.e. the need to 
forcefully move forward reforms that have long been stalled (due to 
election cycles most recently). Serbia needs to now make a breakthrough 
that will bring it into Partnership for Peace and onward toward the 
Stabilization and Association Agreement with the European Union.
    The EU integration agenda of the State Union of Serbia and 
Montenegro may need to be modified so as to effectively advance it. 
This may be done in the following way for reasons of greater expediency 
and both domestic and European public good, security and stability. The 
fact that Serbia and Montenegro have not made any major moves on the EU 
integration road, as others in the region have advanced, is detrimental 
to both Serbia and Montenegro, the region of Southeast Europe and to 
the EU and international stability.
    The way around this, namely the problem of the impossibility to 
achieve a single market, could be to do the following. While 
maintaining the State Union of Serbia and Montenegro, separate out the 
EU integration process for each, turning them into parallel integration 
processes so that both Serbia and Montenegro advance on their own merit 
unhindered by each others lacunae. This has been forcefully advocated 
for example by the Deputy Prime Minister of Serbia Miroljub Labus. 
There are some signs that the EU is itself seeking an approach that 
would bear more effective and speedier results in reaching the so-
called ``Copenhagen criteria'' encompassing the principles of liberty, 
democracy, respect for human rights and liberties, the rule of law.
    In fact, the Thessalomki Summit of the EU, under the Greek 
Presidency of the EU, in June 2003 clearly stipulated that the 
countries of the Western Balkans would become members as soon as they 
completed the required reforms and alignments with EU laws and 
practices (the acquis communautaire) and demonstrated their capacity to 
be providers of security and stability. The time is to help those 
countries that have not advanced on the integration road since the 
Thessaloniki Summit.

                    THE BALKANS ON THE AGENDA AGAIN

    There seems to have been a refocusing on the Balkans in this first 
half of 2004. I believe there are two reasons for this.

  <bullet> First, the accomplishment of the historical 1st May 
        enlargement of the European Union and the parallel big bang 
        NATO enlargement has turned the attention of the 
        ``administrators of enlargement'' (especially in the EU) to the 
        next chapter which in all clarity is the enlargement of the EU 
        in the Western Balkans. Whenever in time that maybe these 
        experts and their offices have opened their next files entitled 
        Western Balkans. Clearly Turkey is the other key country that 
        is being considered for beginning of negotiations and I deem 
        that a vast majority of Southeast Europe countries are not only 
        sympathetic to Turkey's future European integration for reasons 
        of stability and security, but are also willing to champion it 
        following Greece's example.

  <bullet> The second reason for a refocusing of attention on the 
        Balkans were the events of March 17/18 in Kosovo. What was 
        evident to many involved with the region, was that complacency 
        with the security situation of non-Albanians (principally 
        Serbs) and stagnation on the standards before status was going 
        nowhere. The ethnic violence with the resulting expulsion of 
        about 4000 people from their homes and destruction of those 
        same homes and religious edifices--was a severe wakeup call to 
        all those internationally responsible. Recent reports by the 
        OSCE or by Amnesty International among many, point to the 
        numerous inactions, lack of action in preventing the appearance 
        of violence and then the actual inability to prevent it even 
        with significant international military and police presence. 
        The renewed activity of the Contact Group (Italy, France, 
        Germany, Russia, United States, EU) is but a sign of that 
        renewal of attention.

                                 KOSOVO
 
   This is the most difficult unresolved issue in the Balkans. It 
comes at the tail end (as many surmised it would at the beginning of 
the breakdown of former Yugoslavia in 1991) of a series of wars and 
interventions.
    When domestic actors are incapable of solving a contentious issue 
and require a third party to mediate then all parties become 
stakeholders. The crucial stakeholders are the domestic ones and unless 
they arrive at solution based on compromise through negotiations then 
no solution will be found, or only half measures will be achieved. The 
lack of a solution in Cyprus because one of the key communities was not 
on board the agreement is an example of this, again all things being 
equal.
    In Kosovo as in other similar/dissimilar seemingly ``intractable'' 
conflict or post-conflict situations (Northern Ireland, Kashmir, Sri 
Lanka, Basque country, Israel-Palestine, etc.) the solution is in 
bringing the voices of moderation, pragmatism and realism forward while 
blunting the arguments and basis of grievance of the extremists 
wherever they may be. The engaging of the dialogue is essential--in 
this case between Albanians and Serbs. This long and arduous dialogue 
had begun, but was interrupted. It should be resumed, reengaged and 
broadened.
    The late Prime Minister Zoran Djindjic launched a ``Kosovo 
initiative'' internationally in January 2003, exactly for reasons of 
countering general complacency and engaging a dialogue aware that time 
was not working for the region for those involved in moving toward 
European integration. He thus deemed it necessary to take 
responsibility for moving the agenda forward and putting the issues 
within a firm institutional process, which would seek in a orderly, 
negotiated, stabilizing fashion, (in his words) a ``democratic, 
rational, de-emotionalized, European solution.'' A process which would 
not and should not interfere in the domestic political dynamics of each 
concerned part of the region of the Balkans.
    The opening moves that were required, Djindjic told many an 
interlocutor, was to greatly enhance the level of security for the non-
Albanian (Serb) population of Kosovo, to end the impunity of those 
engaged in acts of violence and to uphold the principle of return (in 
the name of which the intervention of NATO was launched). Violence, 
i.e. was not to be rewarded in any way. The other initial stipulation 
was for Serbs in Kosovo to achieve some form of local self-government 
(decentralization) in areas where they were a majority. Finally, and 
remaining at the issue of necessary initial steps in search for a 
stable, lasting, and sustainable solution was for all international 
actors already involved to contribute actively to finding the common 
ground of a lasting framework.
    The spirit of this initiative is alive today. It is precarious and 
needs to be supported forcefully. There are moderate voices and those 
who realize that the need to work together prudently for the peaceful 
future of all citizens of the region is the only way forward. There are 
on the other hand those who still dream of maximalist solutions on both 
sides. There is an urgency to engage the dialogue and begin finding the 
common denominators.
    For many the dialogue and exchange of views has been ongoing 
through even the periods of greatest adversity, it is now time for 
those forward-looking responsible, democratic reformers to engage in 
the renewed dialogue backed by elected officials, civil society and 
international institutions.
    What was then and is now clear is that the overarching framework 
not only for Kosovo but for the Western Balkans and Balkans overall is 
the European Union as well as, initially, the collective security 
framework of Partnership for Peace and NATO (taking into account that 
Romania and Bulgaria are already full members). The EU has taken over 
the military mission in Macedonia, it prepares to take over in Bosnia 
and Herzegovina the mission from SFOR. There is no doubt that along 
with the UN, NATO, OSCE the EU has the crucial role to play in the 
future of the Balkans.
    The stabilization of the Balkans is in fact a test for the EU's 
security strategy.

                WHICH WAY TOWARD SUSTAINABLE ECONOMIES?

    The democratic process is by definition grounded in the polity of 
each country. It is the individual citizens and their elected and 
accountable leaders (who represent the options of parliamentary 
political parties) to it whom it behooves to carry both the formal and 
substantive content of reform and democracy forward. These societies 
confronted with the legacy of communism and often also of 
traditionalism, but also opening unto the global market place have 
needed the support of external actors to be able to pursue their joint 
goals of democracy and market economy.
    Support has gone to three key areas: state, economy and civil 
society. Support to state capacity building has been fundamental. This 
has meant supporting and fostering an efficient public administration 
and civil service, an independent and equally efficient judiciary, law 
enforcement agencies accountable to parliamentary control, security 
services and the military working not any more as a state within a 
state but as fully accountable and controllable actors contributing to 
and providing stability. Civil society support has been important to 
give citizens the skills and capacities to address many challenges by 
themselves, not waiting for the state (as in times of old) to cater to 
their every need. Community development has been a key part of this 
process. Finally, support to the economy, initially to essential and 
existential infrastructure areas such as food (at the very early 
stages), to the power energy and supply system, to road and rail 
networks and then to small and medium sized enterprises, also support 
to help create the appropriate conditions for an economy integrated 
into the world market.
    This external aid has been essential in the early phases of the 
democratic and market economic process. All these countries were and 
are aware though that that sooner they can reach sustainable levels of 
economic production and activity and thus no longer need the benefit of 
aid, will be the better of because this is proof of consolidation. 
Foreign direct investments are a key part of creating that 
sustainability and some of the more advanced countries in the region 
have benefited from creating the enabling legal and other conditions 
for foreign investments.
    The period in between the initial stages of economic and legal 
reform, and that of a sustainable market economy is of interest to us 
here today. Many of the countries we are looking at with still existing 
unresolved issues often suffer high levels of unemployment and low 
levels of economic activity. Thus a significant effort in making the 
Balkans a success is to focus among all other things on this area of 
badly needed support to economic reform and job-creation.
    Without the civic and political energies of the countries of 
Southeast Europe themselves democracy would not have taken hold. 
Conversely without the support from outside this process would have 
been significantly slower and less efficient.
    The European Union and its member states, the United States, 
Canada, Japan, Norway, Switzerland, and very many others have played an 
important role in this donor effort throughout the region. 
International financial institutions such as the International Monetary 
Fund and the World Bank have clearly contributed as well as the 
European Bank for Reconstruction and Development and the European 
Investment Bank. All these efforts should be sustained at levels which 
should allow these market economies some of which are showing very 
positive signs while others are still struggling to make ends meet, to 
move forward and become the ground on which a sound democratic polity 
can deliver to its citizens a dignified, decent livelihood. The EU 
again has a major role in determinedly paving the way and preparing 
with the future candidate countries of the Western Balkans their 
interface with the more stringent, more engaging, and constraining 
structural institutional framework of EU integration.
    One example of this keen awareness that there is unfinished 
business in the Balkans and that a variety of both governmental and 
non-governmental actors still need support to further democratic 
reform, enhance civic participation and contribute to creating a 
environment of consensus around the public interest is the Balkan Trust 
for Democracy, which is project of the German Marshall Fund of the 
United States--a public-private partnership launched with USAID, the 
C.S. Mott foundation (Flint, Michigan). This is a ten year project 
launched last year, endeavoring in all of the Western Balkans as well 
as in Romania and Bulgaria. It has been additionally supported recently 
by a significant donation by the Dutch Government and a pledge from the 
Government of Greece. This, now, transatlantic effort at democratic 
institution and capacity building both for governance and civil society 
projects in the Balkans has met with great enthusiasm and expectations. 
As certain donors prepare to scale down and leave, others such as the 
Balkan Trust are contributing to the long-term effort of democratic 
consolidation and empowering the citizens of the region.

          CONDITIONALITY AND TELEOLOGY: CIVILITY AND DEMOCRACY

    At the current stage when democratic reformers are fully engaged in 
confronting the broad and simultaneous transitional agenda of 
transforming and reforming every aspect of society, politics, economy, 
judiciary, security and military, education--adapting them to the needs 
of citizens who have voted for democracy and Europe--or may I add on 
this ``quatorze Julliet,'' storming of the Bastille day--for human 
rights and for ``liberty, equality and fraternity'' (we would probably 
say ``solidarity'' instead of fraternity today) it is imperative that 
solidarity be promoted and the mutual responsibility for the future of 
Europe and for the post-Second World War project of peace in Europe 
find its current completion by bringing the Western Balkans into the 
fold of Europe whole and free.
    Excessive conditionality has been a blunt tool. Sometimes a policy 
of the lowest common denominator between key external actors has, to 
make an understatement, not helped the fostering of the greater public 
and international interest--stability and sustainable peace in the 
region.
    Bold leadership is needed both domestically and internationally to 
fully succeed in Southeast Europe Rethinking policies toward a more 
pro-active stance with regard to support the efforts of the countries 
of Southeast Europe would be most welcome.
    To include is I believe much more efficient than to exclude. To 
become member of a union, a partnership, an alliance, to be endowed 
with responsibilities as a member is much more conducive to a change of 
values and behavior. To be left out while others are advancing or 
entering partnerships carries with it the extreme danger that a 
backlash of retrograde political forces could ``punish'' the lack of 
accomplishment of reformers--it undermines the efforts of coalitions 
for change in these societies. There is a deep mutual responsibility in 
the world today, and in this case in the Balkans for a possible 
success, or conversely for failure by negligence.
    As they follow in the footsteps of the Czech Republic, Estonia, 
Hungary, Latvia, Lithuania, Poland, Slovakia, Slovema (now members of 
both EU and NATO), the processes the countries of the Balkans are 
undergoing are arduous, long and costly. The more aware we are in 
learning the lessons of these earlier transitions and integration 
processes the faster we shall bridge the gap to the completion of 
Europe.
    In the Balkans today, with all the outstanding unresolved issues or 
lingering uncertainties--and I have here on purpose chosen to dwell on 
some aspects of the positive story that seldom get told--we are within 
reach of civility and democracy. But if economies do not begin to 
deliver however minimal amounts of material decency and dignity to 
citizens, then we could for example find ourselves with maybe even 
ideal polities which would ultimately fail because they could turn out 
to be economically unsustainable. Alexis de Tocqueville made this point 
among others very forcefully--there is no successful democracy without 
a successful economy.
    The glass in the Balkans is half-full let us, Mr. Chairman, 
Senators, continue filling it.

    Senator Voinovich. Thank you very much.
    Mr. Surroi.

 STATEMENT OF VETON SURROI, PUBLISHER, KOHA DITORE, PRISTINA, 
                             KOSOVO

    Mr. Surroi. Thank you very much, Mr. Chairman. I thank you 
and Senator Biden for your continuous interest in the Balkans 
from the time when you were actually a small minority here. I 
am very glad to be here with this panel of friends.
    I think there are several blunt formulations which I should 
use in the Kosovar case.
    The first one is stagnation. We are in a stagnating society 
in which the U.N. mission in Kosovo has not fulfilled its role 
and its role was to develop self-rule in Kosovo. Currently we 
are operating under four different legal systems: the U.N. 
regulations, the UNMIK regulations, the pre-1989 laws, the laws 
that are passed by the Kosovar parliament, and the laws of 
Serbia that are run in the so-called Serb parallel 
institutions. Now, when you have four different legal systems, 
you basically do not have the opportunity to have rule of law.
    The second, following it and a parallel image of it, is 
that we have three or four different economic systems, 
including socialist self-management, which died in ex-
Yugoslavia 10 years ago. UNMIK makes all key day-to-day 
decisions, including the way the money for the budget is 
assembled and how the budget is spent.
    What we have had is a system of a mutual blame game between 
UNMIK and the Kosovar leadership for the past years, which 
UNMIK criticizes, quite rightly, the Kosovar leadership for 
lack of leadership, and then the Kosovar leadership blames 
UNMIK for lack of capacity to deliver, and quite rightly so.
    We do not have a system of checks and balances, and in that 
situation, we are actually confronted with explosive 
indicators. Aid money has been spent, $2 billion of it. The 
rate of unemployment is, in real terms, beyond 70 percent. The 
Kosovar economy covers with only 3 to 4 percent of exports the 
quantity of products it imports, most notably food and 
electrical energy, which it exported 15 years ago.
    Now, when you have this kind of stagnation for years, where 
we are is in degradation, and I think the March events 
manifested in very tragic, brutal, and bloody terms where 
degradation is leading and the capacity of extremists to hijack 
protests and to direct them in inter-ethnic violence, 
especially against the Serbs.
    They also showed the breakup of a system. There is no 
system that can control this explosive situation, not only in 
terms of security where UNMIK failed, not only in terms of 
political leadership, where most of the Kosovar political 
leaders failed, but as we saw in the credibility of KFOR. 
Fortunately what we saw is where there were American flags on 
the arms of the soldiers, the violence diminished rapidly. It 
shows that high credibility not only of the U.S. military, but 
basically the great credibility of America overall.
    The sense of degradation is on the brink of endangering all 
the achievements of the international community in Kosovo and 
those achievements are not small. We are actually an electoral 
democracy and we have gone through very good elections, free 
and fair, that are a model for the region.
    Why does this happen? I think I will agree with Jim O'Brien 
and Jim Dobbins, that we have had a policy vacuum over these 
years. First of all, the Albanian leaders have continuously 
stressed one policy which is formal recognition of 
independence, even though in the present format, Kosovo would 
qualify as a failed state, but it is not a state anyway, so it 
could not be a failed state.
    A good part of the Serb leadership in Serbia and among the 
Kosovar Serbs has been engaged in a competition to further 
develop or project the future Serb rule over Kosovo, or part of 
its territories. What has emerged as a consensus is a de facto 
partition plan under the concept of decentralization of Kosovo 
on an ethnic and territorial basis.
    And the international community has been debating for more 
than 2 years on making operational its standards before status 
policy. With one notable exception, that of the initiative and 
the continuous initiatives of Under Secretary Grossman to bring 
a review date to the standards policy, there has been an 
overall lack of American leadership there. Therefore, the lack 
of something that has always proven to be of utmost importance 
in Europe, even more so in the Balkans, a joint U.S.-EU 
position that always comes when there is American leadership.
    Now, in the best of cases, these debates will go on without 
much harm, and the Kosovar leadership will still probably 
expect that there will be formal recognition. The Serb 
leadership will still insist on keeping its leverage on Kosovo 
with the partition plan, and the international community will 
try, with not much success, to further develop its standards 
policy with the local actors. I say more or less without 
success because the standards have at least one deficiency, and 
that is the assumption that this is a basic functioning state 
that now assumes more sophisticated duties. But the end result 
of this policy vacuum may not be harmless at all. It will 
simply deepen the already intense frustration of the Kosovar 
population.
    Now, there are two things that might happen in the next 
months. The first one is the Kosovar elections. This is an 
opportunity to change the political structure. And the second 
one is to have UNMIK reform itself and that comes with a new 
SRSG.
    On the first one, it is possible to change the situation 
and I am ready to participate in it. I am participating for the 
first time in these elections heading a list with a platform of 
reform of the Kosovar society.
    On the second one, there is an opportunity as well but only 
if there is assistance from the U.S. and the EU, and that is 
how to make UNMIK smaller, how to make UNMIK a partner and not 
a micro-manager in this process. UNMIK should be actually 
focusing within the next period only on justice and home 
affairs and as a partner to Kosovar institutions that deal with 
security, justice, and home affairs.
    Well, whatever is done in both reform on the Kosovar side 
and reform on the international side, the status question will 
still be there. Within the next months after the Kosovar 
elections, I think that the following steps should be 
undertaken to help solve the status issue.
    A clear message from the international community, most 
notably the U.S., on what shall not be tolerated as a status 
outcome. First, partition of the territory whether by 
Belgrade's design or by the actions of Albanian extremists in 
their attempt to isolate and/or drive out Kosovar Serbs. One 
thing that will not be tolerated is an intolerant state.
    Partition will further aggravate tensions of the Kosovar 
Albanian side. It will leave 70 percent of the Kosovar Serb 
population out of the newly created Serb territories, and it 
will serve as the most negative model for inter-ethnic 
relations in south Serbia and Macedonia.
    The second issue which ought to be coming is a new offer 
from the Kosovar authorities after the elections on what the 
model of coexistence should be, in particular for the Serb 
community. That means decentralization as well but as a Kosovar 
initiative.
    A new initiative to assume responsibility for the Serb 
returns. I think it is the Kosovar obligation. It is not 
UNMIK's obligation to do so. And that means opening up 
Mitrovica as a city, making it a united city again where people 
can communicate with each other.
    A new format of dialog between Pristina and Belgrade that 
is not based on so-called technical issues but a real dialog 
that deals with the past issues, which are very big, the 
present and the future issues.
    Of course, at the end something that will undoubtedly help 
and I think that will be very welcome in the new year, in 2005, 
and that is a U.S.-led and EU component in the negotiating team 
that will actually shuttle to create a new framework for this 
dialog.
    Thank you.
    [The prepared statement of Mr. Surroi follows:]

                   Prepared Statement of Veton Surroi

                                Concepts

                             1. STAGNATION

    A full circle of stagnation in Kosova has been reached. The UN 
mission in Kosova, established after its liberation, has not succeeded 
in establishing self rule in it. Currently, Kosova operates under four 
different legal systems (UNMIK regulations, pre 1989 laws, current laws 
passed by kosovar assembly and Serb laws in the ``parallel 
institutions''). It operates under three different economic systems, 
including socialist self-management that died in the Former Yugoslavia 
ten years ago. UNMIK has all the key, even day to day decisions, 
including the capability of projecting how the budget will be built or 
spent.
    A system of mutual blame game has been established. UNMIK 
criticizes the lack of leadership in the kosovar political structures, 
and quite rightly so. The kosovar leadership criticizes UNMIK for not 
allowing it to assume more responsibilities, quite rightly so again.
    Nowhere in sight is there a system of checks and balances.
    Lacking it, there are only explosive indicators: aid money has been 
spent (2 billion dollars of it), the rate of unemployment is in real 
terms beyond 70 per cent, the kosovar economy covers with only 3-4 per 
cent of exports the quantity of products it imports, most notably food 
and electrical energy which it used to export 15 years ago.

                             2. DEGRADATION

    Within this trend of stagnation, it could be expected to enter into 
degradation. And the March events manifested themselves to be a bloody 
step backward in all aspects. In March, interethnic hatred and the 
capacity of extremists to hijack protests and turn them into riots 
showed both the lack of authority of the kosovar leadership, or even 
more, lack of leadership. They also showed, more importantly the 
continuous erosion of UNMIK and its capacity to handle the situation. 
And, for the first time, an understanding that KFOR is not one mission, 
but many national units with their own flags. In the most critical 
moments, I should say, the presence of the American flag not only 
quieted the riots, but also immediately brought reassurance to all the 
citizens about their personal and collective security. This did not 
happen in the different military sectors.
    The sense of degradation is on the brink of endangering all the 
achievements of the international community in Kosova, namely those 
that make it an electoral democracy.

                            3. POLICY VACUUM

    The past 2 years have been spent in doctrinarian and quite often 
empty debates about the policy to be pursued. Some kosovar Albanian 
leaders have been advocating the ``formal recognition of independence'' 
as a solve all solution, without even the minimal attempt to focus on 
the functionality of Kosova, which in its present format would qualify 
for a ``failed state'' category, but then, it is not a state. A good 
part of the Serb leadership in Serbia and among the kosovar Serbs have 
been engaged in a competition to further develop, or project the future 
Serb rule over Kosova or part of its territories. What has emerged as a 
consensus is a de facto partition plan under the concept of 
decentralization of Kosova, on an ethnic and territorial basis. And the 
international community has been debating for more than two years on 
making operational its ``standards before status'' policy. With one 
notable exception, that of the initiative by undersecretary Grossman to 
bring a review date to the ``standards policy'' there has been an 
overall lack of American initiative, and therefore the lack of 
something that has always proven to be of utmost importance in Europe, 
even more so in the Balkans, a joint US-EU position.
    In the best of cases, these debates will go on without much harm. 
Parts of the kosovar leadership will still wait for the formal 
recognition of the independence. The Serb leadership in Belgrade will 
try to keep its leverage on Kosova with the partition plan and the 
international community will try to, with not great success, focus the 
local actors on the ``standards'' policy. I say more or less without 
success because the standards have at least one big built in 
deficiency: the assumption that this is a basic functioning state that 
now assumes more sophisticated duties.
    But, the end result of this policy vacuum may not be harmless at 
all: it will simply deepen the already intensive frustration of the 
kosovar population.

                           4. BACK TO BASICS

    The upcoming Parliamentary elections on October 23 of this year and 
the initiative to reassess the UN mission, may bring room for more 
forthcoming initiatives, and putting the present policies of the 
international community in a new context.
    On the kosovar side there may be a new political spectrum created, 
that should focus on the basic issues of functionality of Kosova. And 
that would mean, establishing of one legal system for the whole 
territory, an assumption of full economic competencies including 
running public enterprises and privatizing the socially owned ones 
(competencies so far in the hands of UNMIK), conceptualizing 
decentralization as an issue of strengthening municipal powers rather 
than creating lines of partition within Kosova, becoming a partner for 
the surrounding states.
    On the UNMIK front, this ought to mean interpreting the mission as 
a correcting force in state building, not a micromanaging one. And it 
ought to mean a shrunk mission, focusing on justice and home affairs, 
in an increasingly partnered relationship with the kosovar institutions 
that should assume much more responsibility in justice and home 
affairs. The EU, within this new arrangement, should assume 
responsibilities it does best: restructuring the economies and 
administrations of post-communist countries in the effort of 
integrating into the EU.
    These are some of the ideas I am presenting here, but will be 
presenting them to the people of Kosova as I assume a new civic duty, 
that of running in the upcoming elections, leading a civic list of 
people with indubitable credibility in the communities where they live.

                               5. STATUS

    Whatever is done, though, there is one question that cannot, and 
should not be evaded, that of the permanent status of Kosova.
    The present policies do not lead to the form in which the status 
issue will be resolved, nor, indeed, the speed to arrive to this stage. 
On the other hand the limbo over status is already creating negative 
results both for the political and economic functioning of Kosova, as 
well as for the region as a whole.
    Within the next months, after the kosovar elections, I think that 
the following steps should be undertaken:

  <bullet> A clear message from the international community, most 
        notably of the US, on what shall not be tolerated as a status 
        outcome, i.e., partition of the territory whether by Belgrade's 
        design or by the actions of Albanian extremists in their 
        attempt to isolate and or drive out kosovar Serbs; an 
        intolerant state.
          Partition will further aggravate tensions on the kosovar 
        Albanian side, it will leave 70 per cent of the kosovar serb 
        population out the newly created Serb territories and it will 
        serve as the most negative model for interethnic relations in 
        South Serbia and Macedonia, where to a great extent successful 
        US-EU mediations have brought a new quality of life.

  <bullet> A new and very specific offer of kosovar institutions on 
        legal ways to address the needs of minorities, and because of 
        the specific historical case, in particular the Serb community 
        in Kosova. The new legal format would address the issues of a 
        minority rights format as well as decentralization, within the 
        overall context of functionality of Kosova.

  <bullet> New initiatives to assume responsibility for the return of 
        kosovar Serb refugees, including those from the divided city of 
        Mitrovica, which as, we saw in March, is a continuous 
        flashpoint. Mitrovica, is in fact the test case of whether 
        citizens can return to their homes, restablishing a united city 
        instead of the now divided form of it.

  <bullet> A new format of dialogue between Prishtina and Belgrade in 
        which initially a catalogue of open questions will be 
        established. These questions will be dealing with the past, 
        present and future.

  <bullet> A joint US-EU initiative to gradually build a joint policy 
        and mediation effort that would address the following issues:

          functionality of the kosovar institutions,

          Overall Framework agreement between Prishtina and Belgrade,

          Ways in which the UN can help, and
          Ways in which post-status encouragement policies can be 
        introduced as of now, within the prospect of Euro Atlantic 
        integrations.

    The US leadership in the end of the 1990's toward the Balkans 
stopped a genocide in Kosova, reversed its effects, and created a new 
historic situation for its citizens. It was a great military and 
political investment, somehow given away to inefficiency of 
multilateral institutions and to some extent irresponsible kosovar 
leaders. It is, though, an investment which can still show itself to be 
a successful model of nation and state building. It again requires many 
things, and critically, local initiatives, but even if there are the 
best around, ultimately it will require the US credibility and capacity 
of engagement to get through this crucial stage in the story of Kosova.

    Senator Voinovich. Thank you very much.
    I am very interested in the perspectives discussed here. It 
looks like Mr. O'Brien and Mr. Dobbins kind of agree on what 
the policy should be in regard to Kosovo.
    I get the impression that all four of you are optimistic 
with the new leadership in Serbia. And I am glad to know that 
the Ohio National Guard is going to be going to Serbia, and it 
is probably going to work out well because we have got 900 
National Guard people in Kosovo. When I was Governor, we sent 
our National Guard to Hungary and helped them civilianize their 
army. So Ohio soldiers have had some experience in that.
    But there seems to be a renewed interest by the State 
Department, a real interest in that area, including working 
with the military, and looking at some of the institutions that 
need to be put in place in order to have a good country.
    The thing that seems to be left out of this discussion here 
is that whatever happens in Kosovo will have an impact on the 
situation in Serbia. You have got some new leaders there that 
made a commitment that they are going to cooperate with The 
Hague and they are going to do some of the things that they 
should have been doing some time ago. But to ignore the impact 
of a Kosovo situation on that at this stage of the game seems 
to me to be a little bit naive.
    I hear from Kosovo Serbs. They are concerned that their 
basic needs are not being met. They cannot, for instance, go to 
the Kosovar Albanian hospital or school. By the way, I think 
you have got more minorities leaving Kosovo than you have 
coming back in terms of refugee return. As a result, minorities 
in Kosovo have in the past turned to parallel structures that 
have received funding from Belgrade. This remains a real 
problem as we look to find a long-term solution.
    Following the March violence in Kosovo, the OSCE mission in 
Kosovo released a report on human rights challenges following 
the March riots. They concluded the central provisional 
institutions of self-government, especially the municipalities, 
need to proactively provide for essential services such as 
education, and health care for all communities in Kosovo. The 
minority community should not have to rely on the services 
provided by parallel structures.
    But the real issue is, how do you deal with this? My 
thought is that if we define the role that all KFOR forces have 
to play in terms of the same kind of responsibilities that our 
forces had, that will make a difference in terms of sending a 
signal.
    No. 2, it seems to me that UNMIK has got to be serious. Mr. 
Surroi, you indicated that you felt they were not a partner. I 
do not think they have really been real serious about how 
important their mission is there.
    Also it is important to communicate to the leadership in 
Kosovo that the challenge right now is to move forward and to 
demonstrate that they are really concerned about human rights 
and dealing with the aftermath of March 17, to show some type 
of indication that the minorities in Serbia do not need 
protection from somebody, that they do not need to be attached 
to some other country in order for them to have a decent way of 
life.
    I think I shared this with you, Senator Biden. When I met 
with Rugova and Thaci right after the war, I said, you have a 
wonderful opportunity to establish a new chapter here and end 
the killing and to treat minorities like they did not treat 
you, and if you do that, ultimately you will have your 
independence. Ultimately you will end this history of killing 
that has gone on for so many years. I do not think they 
listened to me.
    So, I guess what I am saying is in spite of the fact that I 
have heard Mr. Dobbins and Mr. O'Brien and your suggestions 
here that this is what we should do, how can you do that in a 
vacuum without understanding what impact that is going to have 
on the government in Serbia?
    Ambassador Dobbins. Well, let me start on that and there 
are others here who can address it even better. First of all, 
that is a perfectly legitimate question and one I did not try 
to deal with in my statement.
    I do think that, first of all, in a sense Serbia has had 5 
years to get over the loss of Kosovo. It has had 4 years to get 
over the collapse of the old regime and begin building 
something new. During that time, as I said, we kept the lid on 
Kosovo precisely in order to give them that time. One of the 
major factors that led us not to move forward on Kosovo more 
quickly was to allow Macedonia, Serbia, Bosnia to have some 
more time to heal. But you cannot do that indefinitely because 
if Kosovo itself becomes destable, it becomes a source of 
conflict in the region. So at some point you have to turn back 
to it.
    As I have said, I think it is Kosovo's turn to be our 
priority. Serbia was our priority, perhaps not as high a 
priority as it should have been frankly.
    Senator Voinovich. Let me ask you this, Dr. Dobbins. What 
if UNMIK had really done their job in the beginning, 
implementing Resolution 1244? Steiner set up the benchmark 
goals. What if they went forward with the standards and had 
done the job that they should have done, cooperated with the 
government that had been elected in Kosovo? Do you not think 
that we would be a lot further along as to where we are today?
    Ambassador Dobbins. I do think there has been a leadership 
vacuum over the last few years on this issue. I do not think 
that the U.N. can be exclusively blamed. The U.N. does not have 
an independent capacity to set policy on this issue. It 
reflects the consensus among the Security Council, the Contact 
Group, and if there is not a strong leadership pushing that 
consensus--and that leadership normally comes from the United 
States, not always. The Europeans are sometimes capable of 
doing that. They did it on Macedonia, for instance. But if 
somebody is not pushing that consensus, it just lies there. So 
UNMIK has lay there because we have been laying there because 
there has not been anybody who has been pushing a vision. 
Standards before status is a delaying mechanism. It is a way of 
avoiding addressing the issue.
    Now, the other point I would make about the situation in 
Belgrade--and I would be interested in what my colleagues think 
of this. I am not sure we would be doing the democratic leaders 
in Belgrade a favor by trying to persuade them to invest their 
prestige on an urgent basis in order to try to come to an 
agreed solution for Kosovo. I am not sure they are up to that. 
I am not sure it is to their advantage in consolidating their 
own support.
    That is why what I was proposing was not a solution but 
simply a statement of American and European policy and a 
statement that 2 years hence we will try to implement that 
policy, provided certain standards are met. Now, during that 2-
year period, obviously the burden would be on the Kosovar 
leadership to negotiate arrangements with Serbs, both in Kosovo 
and in Belgrade, for the protection and the security and the 
status of the Serb minority in Kosovo. That would be part of 
what would have to be negotiated.
    But I think to begin by trying to put the burden on some 
kind of Pristina-Belgrade dialog to set the framework for the 
negotiations, that is to agree on what the goal of the 
negotiations is, is probably unrealistic in terms of being able 
to get an outcome and probably puts too much of a burden on the 
leadership in Belgrade. To some degree, an international fate 
accompli may actually be easier for them to deal with than 
having themselves to take responsibility for negotiating 
Kosovo's laws.
    Senator Voinovich. Mr. Vejvoda, what do you think of that?
    Mr. Vejvoda. I think that there is definitely an awareness 
in Belgrade that Kosovo is on the agenda. Let me just remind us 
that there has been a complete shift in policy in Serbia after 
the defeat of Milosevic. The way that the crisis in southern 
Serbia was handled under Prime Minister Djindjic's government--
and the Deputy Prime Minister took the lead on that--basically 
was a complete reversal of what Milosevic had done. This time 
there was engagement with NATO, with KFOR, with UNMIK, intense 
working together, and establishing a dialog with the Albanian 
minority in the south of Serbia.
    Likewise during the tensions and violence on March 17, I 
think there was a prudent response, a committed response, 
especially by the Defense Ministry on trying to be constructive 
in finding the quickest possible way to help in diminishing 
those tensions. I think that policy continues.
    Referring to your question earlier about the plan from 
Belgrade for decentralization, I think it is an important 
opening move. It is the beginning of a discussion. It has been 
said clearly in Belgrade that this is not set in stone.
    The dialog has to be reengaged. It began, as you remember, 
back in October formally. Then two working groups were 
established. There have been, again as you know, a myriad of 
track 2, track 1 and a half dialogs where Serbs and Albanians 
have met from Belgrade, Pristina, and from Mitrovica. In this 
dialog, there has been the creation of an atmosphere, I would 
say a more realistic and pragmatic approach to what needs to be 
done, i.e., the people have to sit down and think about it. The 
stakeholders that are involved in this are obviously the U.S., 
the EU, and the United Nations, and that this cannot be solved 
only by Serbs and Albanians, whatever the political will on 
both sides, because our future is in the European Union.
    So I would say there is a fine unraveling as the region and 
as, for example, Serbia and Montenegro move into Partnership 
for Peace, move into EU integration. Ultimately we will all be 
in the EU. So the formula has to be found together with both 
international and domestic stakeholders.
    Senator Voinovich. Do you not agree that if we have a 
renewed commitment, say, in Kosovo in terms of UNMIK, and Prime 
Minister Rexhepi moves forward with backing up his words about 
taking care of the problem that occurred on the 17th, fix the 
houses, deal with refugees and that kind of thing, that kind of 
an attitude on his part should help create an environment where 
this dialog can move forward?
    Mr. Vejvoda. Commitment to that kind of development is 
essential. I would just remind you very briefly that Prime 
Minister Djindjic launched an initiative exactly in the vein of 
what we were talking about last January 2003 because he knew 
that stagnation was not good, that we were all hostage to an 
unresolved situation in our movement toward Europe. He said the 
precondition for beginning to find a solution that would be 
conducive to liberty and democracy for everybody was security 
for those who were in Kosovo and for upholding the principle of 
return. From that baseline, we could then move on to find the 
way to the compromise solution.
    Senator Voinovich. I am going to turn it over to Senator 
Biden. He has got to run.
    Senator Biden. Thank you.
    Veton, it is good to see you again. Thank you for taking 
care of my son when he was in Pristina with our Justice 
Department. I appreciate your hospitality to him.
    What do you think of Dobbins' proposal?
    Mr. Surroi. He had many.
    Senator Biden. The one that is very straightforward.
    Mr. Surroi. No, I agree with him totally in the sense that 
the final objective should be made clear. What I suggested was 
complementary to it, that no partition will be allowed. 
Therefore, setting up a framework. I think that is called 
conditional independence, what Jim was suggesting.
    Senator Biden. Now, you said--and I think it is part of 
what Ambassador Dobbins was hoping--correct me if I am wrong, 
Jim--that this 2-year period is essentially a requirement for 
the Kosovars to demonstrate that they have, in fact, guaranteed 
the security of the Serb minority. Is that right?
    Ambassador Dobbins. Right.
    Senator Biden. Now, you indicated, Veton, that you were of 
the view that it was the responsibility of the Kosovars to take 
over more of that initiative on their own without UNMIK or 
anybody else telling them how to do it. And I am not doubting 
you, but what makes you believe that the circumstances are such 
that there is an environment that can produce that? Is there a 
reason to believe that the political leadership, present and 
emerging, in the Kosovar community is prepared to take those 
and make those guarantees not only in terms of structural 
changes in the law, but in terms of actions? Talk to me about 
that. Why would you be optimistic that is likely to occur? Or 
is it likely to occur?
    Mr. Surroi. My first basic optimism is that I believe in 
it.
    Senator Biden. I know you do. I have great faith in you.
    Mr. Surroi. The second is self-interest. I think the 
Kosovar society understood after March 17--I am not speaking of 
the leadership. I am speaking about the energy that will 
transform the society. It understood two things. A, they are 
sick and tired of violence, the ordinary citizen. And B, the 
question of minorities is essential actually to how the 
majority will live.
    Nowhere is it more visible than in Mitrovica. You have a 
city divided by a river. The Albanians from the south of the 
city cannot go to the north because in the north you have Serbs 
from other places, from Kosovo, to where they cannot return. So 
what we need to do is open up this issue in a different format 
so people can reclaim their property and reclaim their lives.
    Senator Biden. How do you open that up? I acknowledge it 
has not been successful, but there have been a number of 
different efforts.
    Mr. Surroi. Before the March events, there was a serious 
initiative to deal with it based on an NGO proposal, to which 
both the Serbs and the Albanians from Mitrovica subscribed. 
Now, it is a chain of events that would make the Serbs return 
to their homes, Albanians return to their homes and property, 
forms of decentralization that would ensure that a Serb-run 
majority entity would be part of the greater Mitrovica city. So 
forms of both economic and legal arrangements that would have 
people satisfied.
    Senator Biden. Is it your sense that that is, as we find 
ourselves in July, able to be negotiated or banged out intra-
Kosovo? In other words, that this can be done without looking 
to Belgrade, that Serbs within Kosovo, in Mitrovica can 
negotiate that, if there is a good faith effort on the part of 
the Kosovars? Or does Belgrade have to be in the mix?
    Mr. Surroi. Belgrade can spoil things but it can be a 
partner as well. It is the choice of Belgrade. But I think if 
we keep the issue of returns to the issue of rights, to the 
right of the people to return and to a society that allows or 
recognizes those rights, then things can be done. When you get 
to specifics, the question of returns is not so complicated. It 
is actually a technical issue which you have to tackle. You 
have to see where people can return, whether their houses are 
built or not. You have to see what they are going to live on, 
and you have to see what is the basic security and how much 
political investment you need in that security. But a Kosovar 
Albanian leadership should do that, not some U.N. bureaucrats.
    Senator Biden. I agree with you, it should. I remember 
being in Brcko about 8 years ago and watching, literally 
walking down the street in the neighborhood that basically had 
been bombed out, a big neighborhood--I mean, there must have 
been 300-400 homes--a group of men, 8 or 10, carrying 
pitchforks and shovels, heading toward a home that was rapidly 
being boarded up, about the equivalent of three blocks away. It 
was from here to that door from the home in question. It took a 
young second lieutenant, who was United States Army personnel, 
to work out the arrangement. What had happened is they had been 
bombed out, the occupants of the home, and the Serbs were 
coming back to claim their home forcibly. It took a young man 
to work out a system whereby he guaranteed the people in the 
home, who acknowledged it was not their home, access to another 
home in order to be able to avoid this conflict. I learned a 
lesson from that. It is one house at a time. It is one 
apartment at a time. And it is really a difficult process.
    I am not saying this as a criticism. I have yet to see the 
sense of--and I am prepared to be educated in this--urgency and 
commitment on the part of the rest of Kosovo, outside of 
Mitrovica, to do that painstaking process without a third party 
being involved. But believe me, all of us would love it to 
occur without any third party involved. But I am looking for 
signs that say that is possible, and I have not seen any yet. 
It does not mean they do not exist.
    I must tell you, Veton, I feel a little bit guilty as much 
as you know how many times I have been to Pristina and how many 
times I have been to Kosovo and how many times I have been to 
the region, as my colleague. I think we have probably visited 
there more than any two Senators have by a long shot. I feel a 
little guilty because my attention has been diverted to Iraq 
and to Afghanistan. It is more than I like.
    At any rate, this is obviously not a question. It is a 
concern I have about how you square the circle because I think 
it is within the pieces. I agree with your overall approach, 
how to go about it, but the devil is in the details. I would 
need to know myself a lot more.
    But at any rate, I appreciate your listening to me as well 
as answering my questions. This has been a first-rate panel.
    Mr. O'Brien, I want to thank you for your testimony. In 
full disclosure, Mr. Chairman, the attractive young lady back 
to my left is my niece, and she is a Harvard student who works 
for Mr. O'Brien and I insisted she sit with me, not with him.
    I wrote her a note, Mr. O'Brien, complimenting her on the 
brilliant statement she wrote for you. I give her full credit 
for your brilliance, even though I know that is not true.
    Thank you very much, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Biden. I really 
appreciate your being here. You have certainly enlightened me 
in terms of your perspective on things.
    My last question. The marriage between Serbia and 
Montenegro occurred because the EU wanted it to occur. Mr. 
Vejvoda, would you like to comment on that, or anybody else, 
about how real the arrangement is, and is it a possibility that 
it will continue, or do you think that there is going to be an 
effort for those in Montenegro to say we want our own 
operation, our own country?
    Mr. Vejvoda. Well, let me start out by saying, Mr. 
Chairman, that it was not only because of the European Union 
that we have a state union of Serbia and Montenegro. There was 
also a willingness I would say on the part of the then-actors 
to find a rational and democratic recasting of what was then 
the Federal Republic of Yugoslavia into a new state union that 
would acknowledge the level of acquired competencies of both 
units, namely of Serbia and Montenegro. This was, as we have 
already said, for reasons of regional security. It was not 
clear what would happen if there was an abrupt possible 
separation then with regard to broader ramifications, but it 
also was the result of a forward-looking view which said, well, 
if we are all going to join the European Union, why should we 
make this sort of temporary separation before we are in the 
club together. So there were reasons of rationality among other 
things.
    There were also reasons that spelled out the fact that at 
that moment it did not seem the terms of reference that 
Montenegro had set for themselves, i.e., independence through 
referendum, were actually deliverable, which was seen in the 
April elections of 2001 that actually was not close to a clear 
result for independence.
    What happened in the meantime was painstaking work, after 
the signing of the Belgrade Agreement, to find a constitutional 
charter which was finally achieved in February of last year. 
This constitutional charter spelled out the relations. It set a 
3-year shelf-life for the state union to see whether and how it 
operates, and then after those 3 years, to see what would 
happen. Whatever happens, it will happen peacefully, whether we 
stay together between Serbia and Montenegro, or whether there 
was what was called in Czechoslovakia a ``velvet divorce.''
    The most, I would say, frustrating part of the union up 
until now has been, as I mentioned earlier, the impossibility 
to move on European integration because of very technical 
reasons; i.e., the EU requirement was very simply a single 
market, which meant the harmonization of about 10,000 products, 
a joint customs office that could certify origin of products 
that would be exported. It has been impossible up until now to 
achieve that single market. As the European Union would put it, 
they did not have a single telephone to call when they were 
calling the state union of Serbia and Montenegro.
    There has been thinking on how to go around this so that we 
move the train out of the station, both domestically and in 
Brussels in particular, to maybe see whether a two-track 
approach is possible, i.e., parallel integration processes, for 
Serbia and for Montenegro while keeping the state union 
together. As I mentioned, there is thinking of that sort in the 
Serbian Government at this point.
    Whatever may happen, I think it is imperative for the 
greater public international good in Europe and in the region 
itself to move Serbia and Montenegro in whichever way possible 
forward on the European integration track.
    Senator Voinovich. From your perspective, would they be 
better off both coming together and reconciling any kind of 
differences they have and stick together, or do you think they 
would be better off separating. I mean, it is going to have to 
happen. It is slowing things down. Correct?
    Mr. Vejvoda. Absolutely.
    Senator Voinovich. So they either have to understand they 
have a symbiotic relationship where they can both benefit by 
moving forward into the EU and Partnership for Peace or 
continue kind of an uncertainty here.
    Mr. Vejvoda. At this point, I think that the union will 
remain together until the date of the shelf-life ends, which is 
also contested, by the way. Some people say it is 2005. Some 
people say it is beginning of 2006. I think we will see entry 
into Partnership for Peace of the union together.
    The European Union is looking maybe at a two-track process 
within the framework of the union. Again, there was a precedent 
with Czechoslovakia in a certain sense. This yet has to be 
worked out, but I think that everybody is seeing the urgency of 
the need to unravel this issue.
    Senator Voinovich. So they will work it out.
    Mr. Vejvoda. I am sure they will and in the not so distant 
future. By that, I mean by the end of the year we should see 
some kind of solution to that.
    Senator Voinovich. Thank you.
    Bosnia and Herzegovina. Mr. Dobbins, you believe we should 
continue to remain there.
    Ambassador Dobbins. No. What I said was that I regretted 
the loss of an opportunity for solidarity because the number of 
Americans there was so small that it was a small sacrifice to 
keep them there. But I think now that we have negotiated what 
seems to me a very viable with the European Union to take this 
over, I think it will be good to give them a chance to 
demonstrate their independent capability. It will give NATO and 
them a chance to demonstrate the capacity to work together. So 
I am not arguing that this should be reversed.
    I am arguing that the United States needs to recognize that 
solidarity and burden-sharing are two-way streets, and that it 
cannot only happen on the issues that we feel passionately 
about at any given moment.
    Senator Voinovich. Does anyone else want to make a comment 
about anything anybody else said, what the other witnesses have 
testified to?
    Mr. O'Brien. If I may, Mr. Chairman, just a point on your 
first question. This is a vitally important time for Serbia, 
and I think the next 6 months to a year is the time that we 
move forward. We should do it on two fronts. They have a 
domestic battle with the people who oppose the democrats. They 
are the same people who are protecting war criminals. So let us 
help the democrats by engaging them in every way we can. Within 
6 months or so, we may find The Hague issue is no longer an 
issue.
    We should also see that Serbia's path to Europe is not 
slowed by the problems within the state union. The same for 
Montenegro. If that means dissolving it today, that is fine. If 
they can work it out, that is fine. But let us do it this year 
because then early next year you will find a Serbia where you 
have democrats in authority and they are on a clear path to 
Europe, having resolved the most troubling issues facing the 
country. That is a much different environment in which to 
return to the issue of Kosovo than we face today.
    Senator Voinovich. Any other comments?
    Ambassador Dobbins. Let me just conclude my own remarks by 
saying that I very much appreciate your calling these hearings. 
I think this was a rather inspirational session actually. I 
certainly leave and I suspect we all leave a little more 
optimistic than we came as a result of it.
    I would like to thank you particularly, Senator, for the 
unqualified and consistent support you gave when I was 
responsible, when Jim O'Brien and I were both responsible, in 
the early part of this decade in bringing about a transition to 
the democracy in Serbia. It was extremely important to have 
that kind of support from the majority in the Senate.
    Senator Voinovich. Thank you.
    Mr. Vejvoda. Mr. Chairman, may I add a few words also? May 
I rejoin in saying that I also believe this is a very timely 
hearing. I believe that there is a necessary focus on the 
Balkans, a refocusing, because as I said, we are close to 
succeeding in a number of the unresolved issues. Attention has, 
for all the right reasons, been steered away to other regions 
of the world. I think we need a little more focus and a little 
more resources, nothing big, to make this a success. Thank you 
very much.
    Senator Voinovich. I agree.
    I would like to say also that we are very pleased today to 
have the Ambassadors of Serbia and Montenegro and of Macedonia. 
We have a distinguished guest from Serbia and Montenegro, Mr. 
Nenad Canak, President of the Assembly of Vojvodina. We thank 
you very much for your presence here today.
    [Whereupon, at 4:49 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


       Responses to Additional Questions Submitted for the Record


  Response of D. Kathleen Stepehens to an Additional Question for the 
            Record Submitted by Senator Russell D. Feingold

    Question. Could you please provide me with an update on what 
progress has been made in holding accountable those responsible for 
attacks on minorities in Kosovo during the March 2004 violence?

    Answer. According to the United Nations Interim Administration 
Mission in Kosovo (UNMIK), over 270 persons have been arrested on 
criminal charges related to the violence. International Prosecutors and 
Judges are handling the most serious criminal cases, including 19 cases 
involving deaths and those against organizers/leaders of riots, 
aggravated inter-ethnic violence and significant violence against 
police. These cases involve 26 defendants, of which 18 are in 
detention. Local courts, with close OSCE supervision, are handling over 
200 cases that involve lesser crimes such as theft, arson, attacks on 
official persons, etc. As of July 27, there have been 70 convictions 
and 200 cases are either in court or are under investigation.

                                 ______
                                 

 Responses of Mira R. Ricardel to Additional Questions for the Record 
                Submitted by Senator Russell D. Feingold

  U.S. POLICY IN SOUTHEAST EUROPE: UNFINISHED BUSINESS IN THE BALKANS

    Question 1. A number of my constituents have expressed concerns 
over the violence in March 2004 against Serbs and other minorities in 
Kosovo. Why were the UN Mission in Kosovo (UNMIK), KFOR and Kosovo's 
government unable to protect minority groups during the riots? What can 
the U.S. do to better assist UNMIK, the Kosovo government and KFOR in 
establishing better security for Kosovo's minority communities, 
especially the Serbs?

    Answer. The March violence in Kosovo was deplorable. While most of 
it was directed against ethnic Serbs and minorities in Kosovo, it 
should be noted that there were deaths among Kosovar-Albanians as well. 
KFOR was quickly called into action but the first lines of civil 
security in Kosovo are the Kosovo Police Service (KPS) and the UN 
International Police. Most deaths unfortunately occurred when police 
units were too slow, too few or inadequately equipped to respond 
effectively to the riots. Once KFOR arrived, the situation was 
gradually brought under control; that does not mean however, that KFOR 
does not have to improve its performance. A NATO ``lessons learned'' 
study was initiated immediately after the March events. It showed that 
one of the greatest inhibitors to effective action across boundaries 
was so-called ``national caveats.''
    The U.S. is leading the drive to make KFOR more agile and flexible 
in emergencies with fewer restrictions imposed by contributing 
countries on how their forces can be used. For example, some countries 
do not allow their forces in other sectors or to use lethal force to 
protect property. The U.S. has no such restrictions on its forces.
    The U.S. has long supported UNMIK's efforts to establish the Kosovo 
Police Service (KPS). We are working to further improve the 
coordination between KFOR and the KPS, sharing the lessons learned in 
the U.S. sector (Multi-national Brigade East) with other KFOR 
components throughout Kosovo. A new Kosovo Security Advisory Group has 
also been created that provides a forum for Kosovo Serbs, the 
Provisional Institutions of Self-Government (PISG), UNMIK and KFOR to 
discuss the most critical security issues. The U.S. will continue to 
closely monitor the situation and pursue efforts to prevent such 
unfortunate errors in the future.

    Question 2. There have been reports of an increase in ethnically 
motivated attacks within the Vojvodina region in Serbia against ethnic 
Croats and other minorities in the past year. What, if anything, is 
behind these attacks? Is the Serbian government acting sufficiently to 
protect the rights of these minority communities in Vojvodina and other 
communities?

    Answer. In March 2004 there were incidents against Muslim residents 
in Vojvodina presumably in response to the anti-Serb rioting in Kosovo. 
The most serious was a Molotov cocktail attack on a Muslim-owned bakery 
in Novi Sad, Vojvodina's principal city. Other groups targeted in 
ethnic incidents in Vojvodina include Croats, Slovaks, Ruthenians, 
Roma, Jews, Ashkali, and Chinese.
    During the recent Serbian Presidential campaign, the various 
minority communities in Vojvodina, of which the Hungarians are the most 
numerous, largely supported Boris Tadic. Those supporting the opposing 
Serbian candidate from the Radical Party, Tomislav Nikolic, engaged in 
petty harassment (to include vandalism, graveyard desecration, at least 
seven telephoned death threats, and a few physical attacks) in an 
attempt to intimidate Tadic supporters.
    The Tadic-led Serbian government has responded in three areas: 1) 
Statements denouncing ethic-based strife including Tadic's July 11, 
2004, inauguration speech; 2) Meetings designed to open a dialogue 
between Hungary and Serbia regarding the plight of ethnic minorities in 
both countries which may lead to the establishment of a bilateral 
commission; and, 3) A decision to begin integrating ethnic minorities 
into the region's police forces.
    These efforts mark a good beginning to counter the upsurge in 
ethnic strife in Serbia. It remains to be seen whether this response 
will be enough. The pace of integration of ethnic minorities into the 
police forces will be a useful measure of the Serbian government's 
commitment to meaningfully address ethnic-motivated crime.

                                 <all>

</pre></body></html>
